<html>
<title> - NUCLEAR AND STRATEGIC POLICY OPTIONS</title>
<body><pre>[Senate Hearing 110-205]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-205
 
                  NUCLEAR AND STRATEGIC POLICY OPTIONS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2007

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
39-487 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

             Michael V. Kostiw, Replublican Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                     BILL NELSON, Florida, Chairman

ROBERT C. BYRD, West Virginia        JEFF SESSIONS, Alabama
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                  Nuclear and Strategic Policy Options

                             march 21, 2007

                                                                   Page

Drell, Sidney D., Senior Fellow, Hoover Institution, Professor 
  Emeritus, Stanford Linear Accelerator Center, Stanford 
  University.....................................................     5
Payne, Keith B., Professor and Department Head, Graduate 
  Department of Defense and Strategic Studies, Missouri State 
  University.....................................................    54
Gallucci, Robert L., Dean, Edmund A. Walsh School of Foreign 
  Service, Georgetown University.................................    76

                                 (iii)


                  NUCLEAR AND STRATEGIC POLICY OPTIONS

                              ----------                              


                       WEDNESDAY, MARCH 21, 2007

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:37 a.m. in 
room SR-222, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson, Reed, E. 
Benjamin Nelson, Sessions, and Thune.
    Committee staff member present: John H. Quirk V, security 
clerk.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Lynn F. Rusten, professional staff 
member; Jill L. Simodejka, research assistant; Robert M. 
Soofer, professional staff member; and Kristine L. Svinicki, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Jessica L. 
Kingston.
    Committee members' assistants present: Elizabeth King, 
assistant to Senator Reed; Christopher Caple and Caroline Tess, 
assistants to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; and Stuart C. Mallory, assistant to Senator 
Thune.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good morning, and thank you all for 
coming. You all are specialists in the area that we want to 
examine.
    Dr. Drell, I want to particularly thank you for coming all 
the way from California to be with us.
    Dr. Drell, Dean Gallucci, and Dr. Payne, you all have 
prepared statements. We're going to put them in the record, and 
I'm going to ask if you all would just talk to us. That'll save 
a lot of time and we can have a conversation.
    We are here today for a much-needed discussion on nuclear 
and strategic policy. We are on the verge of several key 
decisions with respect to nuclear weapons and the nuclear 
weapons complex, and it's going to have a huge impact on the 
direction that our country is going to take.
    The Strategic Arms Reduction Treaty (START), which was the 
last nuclear weapons treaty between the U.S. and the Soviet 
Union, is going to expire in 2009 unless both sides agree to 
extend all or part of it. It's been 15 years since the end of 
the Cold War, and the executive branch is now proposing to 
begin a new nuclear warhead program and to consolidate and 
modernize the nuclear weapons complex. So, it's time for us to 
have new ideas and to ask, do we need to modernize? If so, how 
and by how many?
    [The prepared statement of Senator Bill Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    Good Morning. I would like to welcome our witnesses this morning. I 
would also like to thank you all for being here this morning. None of 
you are government witnesses and as a result you are all volunteers 
taking time out of your real jobs to share your thoughts with us. Dr. 
Drell, I particularly want to thank you for coming from California to 
be here this morning.
    Dr. Drell, Dean Gallucci, and Dr. Payne, I know that you all have 
prepared statements and Dr. Drell, you have an article that you would 
like included in the record, and without objection we will include 
those documents. Dr. Payne, in your prepared statement you mentioned 
that you also had an article that you would like included in the 
record. If you have a copy of that article, we would be happy to 
include that as well.
    We are here today to have a long delayed, but much needed 
discussion on nuclear and strategic policy. The United States is on the 
verge of several key decisions with respect to nuclear weapons and the 
nuclear weapons complex, which will have an impact for many years to 
come.
    Today we stand at something of a crossroad. The Strategic Arms 
Reduction Treaty, the last nuclear weapons treaty between the United 
States and the Soviet Union, now Russia, will expire in 2009, unless 
both sides agree to extend all or part of that treaty. It has been more 
than 15 years since the end of the Cold War, and the executive branch 
for the first time since then is proposing to begin a new nuclear 
warhead program, and to consolidate and modernize the nuclear weapons 
complex.
    It is time to start afresh and ask what are nuclear weapons for and 
how many is enough?

    Senator Bill Nelson. Senator Sessions, any opening 
comments?

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman.
    I do think you're correct. I do believe that we're in a 
different strategic situation than we were during the Cold War, 
and we're making some decisions--some of those are being 
executed today--about our capacity and strategic weaponry. So, 
we need to continue to work on that.
    We used to think of strategic weapons as silo-based 
missiles, submarines, and B-52 bombers, and the nuclear weapons 
they contained. Today, those strategic forces must not only be 
thought of as nuclear in capability, I believe, but as a broad 
array of capabilities intended to deal with today's new 
threats, which tend to be unpredictable, politically 
undeterrable, sometimes, and extremely violent.
    The 2001 Nuclear Posture Review (NPR) established a 
conceptual framework for today's strategic posture. That new 
posture is predicated on the belief that deterrence concepts 
and force structure of the Cold War must now be tailored to fit 
the reality of today's strategic environment.
    While the NPR recognized that our new relationship with the 
former Soviet Union made possible a significant reduction in 
the size of our nuclear arsenal, it also pointed out the need 
to bolster our strategic capabilities by adding conventional 
strike forces, missile defenses, and responsive nuclear 
infrastructure.
    So, I would just conclude and note that, by the time we 
achieve compliance with our Moscow Treaty obligations in 2012, 
we will have the smallest nuclear stockpile we've had since the 
Eisenhower administration. I'll be interested to learn from our 
witnesses whether or not they believe our current strategic 
posture of reducing weapons has caused aggressive states to 
reduce or delay implementing their own nuclear program, and how 
the reality is perceived out there, how the world is actually 
acting, in a real way, to our actions.
    So, Mr. Chairman, this is a time for a good, thoughtful 
discussion. We have a good panel, and I look forward to it.
    [The prepared statement of Senator Sessions follows:]

              Prepared Statement of Senator Jeff Sessions

    We meet today to receive testimony from Dr. Keith Payne. Dr. Sidney 
Drell, and Ambassador Robert Gallucci on the future of United States 
Strategic Policy. During the Cold War, the term ``strategic forces'' 
almost always meant silo-based intercontinental ballistic missiles, 
submarine-launched ballistic missiles, and long-range B-52 bombers--all 
armed with nuclear weapons. The purpose of these forces was to help 
contain the Soviet Union and Warsaw Pact and, ultimately, to deter 
Soviet nuclear weapons use against the United States and its allies.
    Today, however, strategic forces must no longer be thought of only 
as nuclear deterrents, but as a broad array of capabilities intended to 
deal with today's new threats--which tend to be unpredictable, 
potentially undeterable, and extremely violent. If the Soviet Union and 
Warsaw Pact threat helped define both the mission and the force 
structure of our Cold War strategic capabilities, what are the central 
new threats to the United States and its allies that should help guide 
today's strategic forces? It's a reasonable question to ask, because 
without a clear understanding of the nature of the strategic threats we 
face, we risk sustaining or building strategic capabilities that will 
not serve us well, if at all.

                         NEW STRATEGIC THREATS

    Arguably, the preeminent threat today is terrorism--fostered by 
violent Islamic radicalism--followed closely by the ongoing development 
of dangerous weapons and delivery systems by states that either support 
this ideological movement or believe they can benefit from the 
disruption to regional or global stability caused by these extremists. 
These new, unprecedented threats to the United States are further 
complicated by the concern that we are just not certain whether 
traditional deterrence strategies will work against these potential 
enemies. Will the threat of punishment make a terrorist think twice? 
Can we stop a rogue state from blackmailing us if they are, ultimately, 
able to strike us--or our allies--with nuclear weapons? The point is, 
we need to plan as if deterrence will not work, and therefore acquire 
strategic capabilities able to eliminate these threats before they can 
be used against us--or defend against those threats should deterrence 
fail.
    This was the logic of the Bush administration's 2001 Nuclear 
Posture Review (NPR) which, while recognizing that nuclear forces 
remain a bedrock of our deterrence capabilities, emphasized the 
importance of improving our ability to counter post-Cold War threats 
by, among other things, adding conventional strike capabilities and 
missile defense to our arsenal of ``strategic capabilities.'' The NPR 
also mandated significant reductions in the level of U.S. nuclear 
warheads down to 1,700-2,200. By the time we achieve compliance with 
our Moscow Treaty obligations in 2012, we will have the smallest 
nuclear stockpile we have had since the Eisenhower administration.

                 PROMPT CONVENTIONAL LONG-RANGE STRIKE

    The ability to hold at risk high value targets in the war against 
terrorism, weapons of mass destruction caches, and mobile ballistic 
missile launchers is a capability any commander in chief should want to 
have in this day and age. We might be able to interdict these types of 
threats with covert operatives, strike aircraft, or cruise missiles, 
but this assumes we have the necessary forces in place and that they 
can reach the target in time. What if this were not the case, or the 
target was heavily defended? Wouldn't we want the capability to strike 
this target from afar using a non-nuclear weapon that would reach the 
target in hours, rather than days? Long-range prompt conventional 
strike capabilities also could be used early in a crisis or conflict to 
deter aggression, or stop aggressors in their tracks until other forces 
can be brought to bear. Non-nuclear strategic forces could be 
particularly useful for demonstrating U.S. and allied resolve during a 
crisis, and thereby act as a deterrent to further escalation.

                       BALLISTIC MISSILE DEFENSE

    Recent ballistic missile testing by North Korea and Iran, coupled 
with the use of over 4,000 short-range rockets by Hezbollah against 
Israel, suggests that unfriendly regimes continue to view ballistic 
missiles, and their shorter-range variants, as a means to off-set the 
conventional superiority of adversaries--making them potential weapons 
of influence, blackmail, and terror.
    The U.S. ballistic missile defense program is designed to thwart 
this potential terror weapon, and thereby strengthen U.S. diplomatic 
and deterrence options for dealing with these new threats to our 
security. Over the past 12 months, the United States  has  demonstrated 
 through  realistic  testing  the  ability  to  shoot  down  short-, 
medium-, and long-range ballistic missiles using interceptors based on 
land and at sea, to include a September 8, 2006, intercept of a long-
range ballistic missile warhead by the ground-based midcourse defense 
system. These new missile defense capabilities now contribute to the 
mix of policy options available to the President in his conduct of 
foreign policy.
    This is why U.S. plans to deploy a ground-based midcourse defense 
(GMD) site in Europe are so important. By providing protection for NATO 
nations on both sides of the Atlantic against long-range ballistic 
missiles, plans for a GMD site in Europe support NATO's ongoing 
diplomatic efforts to end Iran's nuclear weapons program. Should Iran 
nevertheless develop the capability to place nuclear weapons on its 
ballistic missiles, NATO will be glad it has in place another means for 
deterring this potential threat--and to defend against it should 
deterrence fail.

                            NUCLEAR WEAPONS

    While we address these emerging threats and develop capabilities in 
response, we continue to maintain our current nuclear weapons. 
Unfortunately, it has become apparent that this work is carried out in 
a nuclear weapons complex that is neither responsive in its 
capabilities, nor sized appropriately. As we develop, and fund at 
significant expense, the scientific tools to understand and certify the 
safety and reliability of our legacy weapons in the absence of nuclear 
testing, the Nuclear Weapons Council is examining whether limits may 
exist in our ability to extend perpetually the life of current 
warheads.
    Earlier this month, the Council approved a design for a joint 
program between the Department of Energy and the U.S. Navy to provide a 
replacement warhead for a portion of the Nation's sea-based nuclear 
weapons. Although this announcement does not represent a decision to 
deploy a replacement warhead, it does mean that the military and 
scientific experts charged with the stewardship of our nuclear weapons 
are now evaluating whether our current path is sustainable over the 
long-term.
    The Department of Energy is also evaluating options for the future 
of the nuclear weapons infrastructure through its Complex 2030 
Environmental Impact Statement. The objective of Complex 2030 is a 
nuclear weapons complex that is sized appropriately for the smaller 
stockpile of the future and that has the capabilities to support that 
stockpile. The evaluation is still in its early stages, but I am 
concerned that the options being evaluated will modernize the complex 
we have now. I am not yet convinced that the Department of Energy is 
genuinely considering the realignment, consolidation, or closure of 
facilities that are excess to mission need. I will be pursuing this 
issue in other hearings the subcommittee will hold this spring.

                               CONCLUSION

    In closing, I might note that during the Cold War, we built 
strategic nuclear forces that we hoped would never be used--because if 
they were to be used, we risked unimaginable destruction. Today, 
however, while we must maintain nuclear strategic forces that 
contribute to deterrence on a daily basis through the fact of their 
existence, we must also build non-nuclear strategic forces that we 
surely intend to use, because if we don't use them, it might mean that 
an adversary could inflict upon us blows of unimaginable consequences--
perhaps far worse than the events of September 11.
    I look forward to hearing the views of our witnesses on these and 
other important strategic forces issues.

    Senator Bill Nelson. Okay. I would say to my colleagues, 
I'm going to defer my questions until the end, so that you all 
can have a chance to have your questions.
    Dr. Drell, why don't you start first, and then Dr. Payne 
and Dean Gallucci.
    Dr. Drell?

      STATEMENT OF SIDNEY D. DRELL, SENIOR FELLOW, HOOVER 
 INSTITUTION, PROFESSOR EMERITUS, STANFORD LINEAR ACCELERATOR 
                  CENTER, STANFORD UNIVERSITY

    Dr. Drell. Thank you, Mr. Chairman and Senators, for the 
opportunity to be here.
    We are here, in my mind, at a dangerous time. I view us on 
the precipice of entering a new and more dangerous nuclear era, 
with the spread of technology, which means that, in particular, 
the enrichment of uranium, which makes it possible for more 
societies to enter the nuclear club and that raises a danger of 
nuclear weapons getting in the hands of terrorist groups, 
others unrestrained by the norms of civilized behavior, as we 
know it; and, therefore, these weapons become more likely to be 
used.
    I think that, in these circumstances, reliance on nuclear 
weapons for deterrence--which was so essential during the Cold 
War--is becoming increasingly hazardous and decreasingly 
effective as the prospect of proliferation of nuclear weapons 
grows increasingly ominous.
    In terms of the size of the stockpile, we still have, as a 
result of the START, although the Cold War has ended, something 
like 5,000 nuclear warheads in each of our arsenals, the United 
States and Russia, with approximately--close to, anyway--2,000 
on ballistic missiles, many on prompt-launch procedures, which 
present risks of accidental or unauthorized launch. Why we're 
retaining such a force of that type is not clear to me.
    I see this situation as presenting us with two major 
challenges. The first one is the immediate one, to develop a 
strategy to try and head off the loss of the nonproliferation 
regime, and to save the Nonproliferation Treaty (NPT). The 
longer-term one is perhaps fanciful, but, I believe, important, 
and that is to try to rekindle the vision, the bold vision, of 
Ronald Reagan and Mikhail Gorbachev when they came to their 
remarkable summit at Reykjavik in 1986 to seek to rid the world 
of nuclear weapons and to escape from the nuclear deterrence 
trap. As far as the immediate problem, and preserving the NPT 
in force since 1970, this requires supplementing that treaty 
with intrusive inspection measures so that we can make sure of 
compliance with its provisions.
    Important agreements have been reached in this regard, and 
we're trying to bring into practice things like the additional 
protocols and the Proliferation Security Initiative to monitor 
these kinds of actions. I think it's also true to say that the 
nuclear weapons states, as we seek these more intrusive 
measures, have to be careful to offer incentives and to show 
restraints in our own programs to the non-nuclear countries 
with whom we need to cooperate in order to have an effective 
inspection regime and enforcement of the NPT.
    Now, to my view, the two recent proposals by the United 
States to build new nuclear weapons were not wise. They were 
reviewed, globally, as counter to the efforts to strengthen the 
nonproliferation regime. I'm talking about the proposed high-
yield bunker-buster for destroying deeply buried, hardened, 
underground targets. The second was the so-called very low-
yield new-concept weapon to destroy deadly biological and 
chemical agents in shallow underground bunkers without 
dispersing their deadly effect. Fortunately, from my point of 
view, both proposals were rejected by Congress after careful 
independent analyses showed that their potential military value 
was quite limited, and marginal, in fact, and less compelling 
than the likely harmful effect that those new programs would 
have on the nonproliferation regime and our overall security 
thereby.
    You are now debating, as you mentioned in your opening 
remark, the Reliable Replacement Warhead (RRW) Program designed 
to transform our aging nuclear complex, and also some of the 
weapons themselves in the current stockpile. There is, in my 
mind, a need to modernize parts of the complex that date back 
to World War II, for reasons of safety, efficiency, and 
flexibility. As long as the United States has nuclear weapons, 
which is likely to be for some time, we do need to be able to 
maintain them in our shrinking stockpile, to be safe and 
reliable. However, a clear decision on our long-term nuclear 
policy, which you alluded to our needing, is needed in order to 
decide the appropriate size and scope of that new complex. I 
think this does call for a fresh look at the role of nuclear 
weapons in our defense planning, and similarly for the 
Russians. We are the two countries with more than 90 percent of 
the nuclear weapons in the world. We are formally, now, 
declared to be allies against terrorism, the new threat we both 
face, and not adversaries, as we were in the Cold War.
    On this point of a new look, former Ambassador James Goodby 
and I analyzed this question of, ``what are nuclear weapons 
for?'' in a report of that same title, which I have submitted 
for the record of these hearings. We considered present and 
prospective threats, and concluded that the strategic arsenal 
required by the United States can be reduced considerably to 
smaller numbers, carefully assuming that the Russians come down 
in a similar way that we do. In fact, as a first step, we 
recommended reducing our force structure to 500 operationally-
deployed nuclear warheads, plus 500 in a responsive force. I 
can go into the details of that in the conversation. But this 
is a cooperative venture on both sides.
    Turning to the other part of the RRW, and that is the 
transformation of the weapons, the stated goal of RRW is to 
increase confidence in their long-term reliability, safety, and 
use control--that's very important--and to do that without 
requiring underground explosive tests. That's the legislation. 
This presents, to my mind, a daunting technical challenge, to 
determine whether design changes or modifications to meet those 
ambitious goals can be certified and deployed without 
underground explosive testing. I believe that, at present, we 
do not know the answer to that question, but I do believe it is 
a worthwhile question to try to answer.
    I think a sensible approach to it would have three 
elements:
    The first one is to proceed carefully with research on 
proposed changes, subject to independent outside scrutiny, to 
determine whether it is possible to build a strong consensus 
and confidence that the proposed changes are mutually 
compatible and have the appropriate pedigree from our past test 
program. It is not a question of changing an individual 
component that'll work. It is a question of putting together a 
complicated system, and having system reliability.
    The second point, I would say, is to recognize there is no 
time-pressing urgency in implementing the changes. The legacy 
stockpile is strong and reliable, in my judgment. The pace of 
the work on RRW should not consume human and budgetary 
resources to the extent of savaging the important ongoing, 
highly successful stockpile stewardship and life- extension 
program.
    The third point is to recognize the importance of being 
clear about the limited goal of what we intend to do with the 
RRW Program, so as to avoid potentially harmful impact on our 
nonproliferation goals.
    We have to recognize that many non-nuclear weapon states, 
whose cooperation we require, remain concerned about the 
seriousness of the commitment of nuclear powers to limit their 
nuclear efforts, and they are restive under the discriminatory 
features of the treaty.
    Let me just very briefly close with a remark about--with 
the second challenge, or opportunity, that I mentioned, and 
that is to rekindle the bold vision that President Reagan and 
General Secretary Gorbachev brought to Reykjavik in 1986 to rid 
the world of nuclear weapons and escape the deterrence trap. 
They came close, with that summit, but they failed. However, 
they did succeed in turning the arms race on its head at 
Reykjavik. They initiated steps leading to significant 
reductions in deployed long- and intermediate-range nuclear 
forces, including the removal of an entire category, the 
intermediate nuclear forces, from Europe. To mark that event, 
former Secretary of State George Shultz, who was with President 
Reagan at Reykjavik, and I organized a conference at Stanford's 
Hoover Institution on the 20th anniversary, last October, and 
we reviewed the impact of Reykjavik and its relevance for 
today's world. We came out with a list of 10 steps, which we 
thought were practical, to define a path for accomplishing 
progress toward that goal, steps which, in and of themselves, 
will help reduce the nuclear danger. Those steps appear in the 
Wall Street Journal piece published January 4, with four 
headline signatories: Secretary Shultz, former Secretary of 
State Henry Kissinger, former Defense Secretary William Perry, 
and former chairman of this committee, Sam Nunn. I've 
introduced that for the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Dr. Drell. Let me end my short time by saying, I think that 
intensive work with leaders of other countries with nuclear 
weapons to make this a joint venture would be an important step 
forward. The steps themselves, you can read about or we can 
discuss. Let me end just by saying that the advantage of having 
that vision, reasserting a vision of a world free of nuclear 
weapons; and taking practical measures toward achieving the 
goal, could have, I believe, a profound positive impact on the 
security of future generations. Without that bold vision, the 
actions that we recommend, and the steps that one takes to 
reduce nuclear danger, will not be perceived as fair or urgent; 
they will still be viewed as retaining the discriminatory 
nature of the nuclear world as it is now. Also, without the 
vision, the actions will not actually be very practically 
achieved in any timeframe.
    So, thank you for allowing me to express my views.
    [The prepared statement of Dr. Drell follows:]

               Prepared Statement by Dr. Sidney D. Drell

    The existing international regime, grounded in the nuclear 
Nonproliferation Treaty (NPT) for preventing new nuclear weapon states, 
reducing existing nuclear arsenals, and controlling the spread of 
nuclear technology and material, is seriously endangered.
    The spread of technology, particularly uranium enrichment and 
plutonium reprocessing technology for civilian energy, creates the 
danger of more states with nuclear arms and fissile material. In turn, 
it provides more opportunities for theft or sale to terrorist groups or 
other societal units unrestrained by accepted norms of civilized 
behavior, thereby increasing the risk that nuclear weapons will be 
used.
    Beyond North Korea and Iran more than 40 nations already have taken 
substantial steps forward in nuclear technology. Even more have 
indicated interest in developing such technology for civilian power. 
Once you can enrich uranium for a civilian power reactor--you are well 
on the way. Without a change of course, the United States and the world 
soon will be compelled to enter a new nuclear era that will be more 
precarious and economically costly than was Cold War deterrence.
    During the Cold War, nuclear weapons were essential to maintaining 
international security because they were a means of deterrence. Sixteen 
years ago the Cold War ended with the demise of the Soviet Union, and 
with it, the doctrine of mutual Soviet-American deterrence became 
obsolete. Deterrence continues to be a relevant consideration for many 
states with regard to threats from other states. But reliance on 
nuclear weapons for this purpose is becoming increasingly hazardous and 
decreasingly effective as the prospect of nuclear proliferation grows 
increasingly ominous.
    Nevertheless U.S. and Russian nuclear stockpiles remain bloated. In 
2012, more than 20 years after the collapse of the Soviet Union, the 
United States and Russia, each, will still have approximately 5,000 
nuclear bombs and warheads in their arsenals, close to two thousand of 
which will be deployed on ballistic missiles, many on prompt launch 
procedures presenting unnecessary risks of an accidental or 
unauthorized launch. Why are we still retaining such large nuclear 
arsenals as a legacy of the Cold War? What are these weapons for?
    This situation presents us with two major challenges--and 
opportunities. The first is to develop a strategy for dealing with the 
world as it is today, starting with steps to prevent the further spread 
of nuclear weapons. The second is to rekindle the bold vision that 
President Reagan and General Secretary Gorbachev brought to their 
remarkable summit at Reykjavik in 1986: ridding the world of nuclear 
weapons and escaping from the nuclear deterrence trap. Although they 
failed in the end, they did succeed in turning the arms race on its 
head. They initiated steps leading to significant reductions in 
deployed long- and intermediate-range nuclear forces, including the 
elimination of an entire class of threatening missiles--the INF 
missiles in Europe.
    Can we rekindle their vision? Can we escape from the nuclear 
deterrence trap before it is too late?
    To face the first challenge, and deal with the world as is, we must 
save and strengthen the nonproliferation regime based on the NPT of 
1970. In view of the continuing spread of nuclear weapons technology, 
the NPT will need to be supplemented with intrusive new inspection 
rights for monitoring compliance with its provisions and detecting 
covert efforts by a would-be proliferator to evade them. Important 
agreements have already been reached to bring such provisions into 
practice.
    It is not necessary to look abroad for challenges to the present 
nonproliferation regime. Nonnuclear weapon states repeatedly emphasize 
their concerns about the ongoing weapons programs of the nuclear 
powers. We are urged to honor the NPT by formalizing the current 
moratorium on underground bomb testing into a Comprehensive Test Ban 
Treaty (CTBT); reducing our reliance on nuclear weapons; and 
substantially decreasing their numbers more rapidly. Recent efforts by 
Washington to build two new nuclear warheads for new military missions 
were viewed widely as counter to global efforts to strengthen the 
nonproliferation regime. One new warhead was a high-yield bunker buster 
for destroying deeply buried, hardened underground targets, and the 
second was a very low yield ``new concept'' weapon to destroy deadly 
biological and chemical agents stored in shallow underground bunkers 
without dispersing them. Fortunately both proposals were rejected after 
several years of debate in Congress. Rejection was based on a judgment 
that benefitted from careful independent technical analyses that 
concluded their potential military value was marginal and less 
compelling than their likely harmful impact on the nonproliferation 
regime and U.S. overall national security. It was also a ringing 
rejection of the dangerous idea of lowering the threshold for using 
nuclear weapons in limited military strikes.
    Currently Congress is debating whether or how to proceed with a 
Reliable Replacement Warhead Program designed to transform both our 
aging nuclear infrastructure and the weapons in our current stockpile. 
There is a need to modernize parts of the complex that date back to 
World War II for reasons of safety, efficiency, and flexibility. As 
long as the United States has nuclear weapons, we need to be able to 
maintain the warheads in the shrinking stockpile to be safe and 
reliable. But a clear decision on our long-term nuclear policy goals is 
needed in order to decide on the appropriate size and scope of the new 
complex. This calls for a fresh look at the role of nuclear weapons in 
U.S. defense planning. The United States and Russia have now officially 
adopted a policy of cooperation against the new threats, faced by both 
nations, of terrorists and unstable or irresponsible governments 
acquiring nuclear weapons. This replaces the former adversarial 
relationship of nuclear deterrence based on mutual based destruction. 
As stated in the Joint Declaration of Presidents Bush and Putin of 
November 13, 2001: ``The United States and Russia have overcome the 
legacy of the Cold War. Neither country regards the other as an enemy 
or threat.'' What then are the anticipated missions and targets for the 
thousands of nuclear warheads remaining in their arsenals?
    Ambassador James Goodby and I analyzed this question of ``What Are 
Nuclear Weapons For'' in today's world in a recent report\1\ that I 
have submitted for the record. Based on our analysis of the present and 
prospective threats that define missions for U.S. nuclear weapons we 
conclude that the strategic arsenal required by the United States can 
be reduced to considerably lower numbers. We recommend as a first step 
reduction to a U.S. force structure of 500 operationally-deployed 
nuclear warheads, plus 500 in a responsive force. The United States and 
Russia should cooperate to achieve this in the coming decade, engaging 
the other nuclear powers for proportionate reductions.
---------------------------------------------------------------------------
    \1\ S. Drell and J. Goodby: ``What Are Nuclear Weapons For?'' 
(Report for the Arms Control Association, April 2005). It is published 
on their website and reprinted in ``Nuclear Weapons, Scientists, and 
the Post-Cold War Challenge'' by S. Drell (World Scientific Press, 
Singapore, 2007).
---------------------------------------------------------------------------
    As to the transformation of the weapons with the stated goal to 
increase confidence in their long-term reliability, safety, and use 
control, we still face a daunting technical challenge to determine 
whether new designs to meet those ambitious goals can be certified and 
deployed without underground explosive testing. I don't believe that, 
at present, we know the answer to that question. But I do believe it is 
worthwhile to try to answer. A sensible approach to it should:
    1. Proceed carefully with research on modifications or a new design 
that meet the stated requirements, before moving ahead to development 
and manufacture. Necessary are detailed analyses subject to fully 
independent scrutiny to determine whether it is possible to gain 
confidence and build a strong consensus that the proposed changes are 
mutually compatible and have the appropriate test pedigree from our 
previous work. It is not a question of the individual components 
working, but of the system--in fact a system of systems--being 
reliable.
    2. Recognize that there is no pressing urgency in implementing 
changes--the legacy stockpile is strong--the pace of the work should 
not consume human and budgetary resources to the extent of savaging the 
important ongoing and highly successful Stockpile Stewardship and Life 
Extension Program.
    3. Recognize the importance of being clear about the limited goals 
of what we are doing so as to avoid potentially harmful impacts on the 
nonproliferation goals of this country and beyond, globally. Concerns 
by the many nonnuclear weapon states, whose cooperation we require, 
about the seriousness of the commitment of the nuclear powers to limit 
their nuclear efforts in accord with the NPT cannot be ignored, denied, 
or dismissed as irrelevant. They registered such concerns strongly in 
negotiations at the U.N. on continuing the NPT into the indefinite 
future, and called on the nuclear powers to restrain their nuclear 
programs and ratify a CTBT.
    An important action to address these concerns would be a commitment 
by the United States to face the second challenge: to rekindle the 
vision of Reykjavik and develop a strategy to achieve it. This was 
addressed at a conference that George Shultz, who participated at 
Reykjavik as President Reagan's Secretary of State, and I organized at 
Stanford University's Hoover Institution this past October marking the 
20th anniversary of that remarkable summit. Ever since Hiroshima at the 
dawn of the nuclear era a number of studies and conferences have 
addressed the challenge of ridding the world of nuclear weapons. 
Renewed interest in achieving this goal has been generated by the 
realization that the world is approaching the precipice of the new and 
even more dangerous nuclear era with the spread of nuclear technology 
that is threatening the nonproliferation regime. Moreover at present we 
lack a global strategy and vision commensurate with the tremendous 
dangers ahead.
    At the Stanford/Hoover Conference we reviewed the impact of 
Reykjavik and its relevance for today's world. We formulated what we 
considered a set of practical steps to define a path for accomplishing 
the goal of ridding the world of nuclear weapons. Our conclusions and 
recommendations were summarized in a recent article that appeared in 
the Wall Street Journal \2\ on January 4, 2007.
---------------------------------------------------------------------------
    \2\ ``A World Free of Nuclear Weapons'' signed by George Shultz, 
William Perry, Henry Kissinger, and Sam Nunn, and endorsed by the 
conference participants who also signed on.
---------------------------------------------------------------------------
    First and foremost, intensive work with leaders of the countries in 
possession of nuclear weapons will be required to turn the goal of a 
world without nuclear weapons into a joint enterprise, and create a 
working mechanism for accomplishing this goal. Such a joint enterprise 
would lend additional weight to efforts already under way to avoid the 
emergence of a nuclear-armed North Korea and Iran.
    Specific actions were also proposed:

        <bullet> Changing the Cold War posture of deployed nuclear 
        weapons to increase warning time and thereby reduce the danger 
        of an accidental or unauthorized use of a nuclear weapon.
        <bullet> Continuing to reduce substantially the size of nuclear 
        forces in all states that possess them.
        <bullet> Eliminating short-range nuclear weapons designed to be 
        forward-deployed.
        <bullet> Initiating a bipartisan process with the Senate, 
        including understandings to increase confidence and provide for 
        periodic review, to achieve ratification of the CTBT, taking 
        advantage of recent technical advances, and working to secure 
        ratification by other key states.
        <bullet> Providing the highest possible standards of security 
        for all stocks of weapons, weapons-usable plutonium, and 
        highly-enriched uranium everywhere in the world.
        <bullet> Getting control of the uranium enrichment process, 
        combined with the guarantee that uranium for nuclear power 
        reactors could be obtained at a reasonable price, first from 
        the Nuclear Suppliers Group and then from the International 
        Atomic Energy Agency or other controlled international 
        reserves. It will also be necessary to deal with proliferation 
        issues presented by spent fuel from reactors producing 
        electricity.
        <bullet> Halting the production of fissile material for weapons 
        globally; phasing out the use of highly-enriched uranium in 
        civil commerce and removing weapons-usable uranium from 
        research facilities around the world and rendering the 
        materials safe.
        <bullet> Redoubling our efforts to resolve regional 
        confrontations and conflicts that give rise to new nuclear 
        powers.
        <bullet> Addressing the requirements for effective measures to 
        impede or counter any nuclear related conduct that is 
        potentially threatening to the security of any state or 
        peoples.

    Reassertion of the vision of a world free of nuclear weapons and 
practical measures toward achieving that goal could have a profoundly 
positive impact on the security of future generations. Without the bold 
vision, the actions will not be perceived as fair or urgent. Without 
the actions, the vision will not be perceived as realistic or possible.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Bill Nelson. Thank you, Dr. Drell.
    Dr. Payne?

  STATEMENT OF KEITH B. PAYNE, PROFESSOR AND DEPARTMENT HEAD, 
GRADUATE DEPARTMENT OF DEFENSE AND STRATEGIC STUDIES, MISSOURI 
                        STATE UNIVERSITY

    Dr. Payne. Thank you, Mr. Chairman. It's a privilege to be 
here this morning, and I thank you for the invitation to speak 
here.
    I'm happy to shorten my prepared statement and enter the 
full statement for the record.
    Senator Bill Nelson. Yes, all of the statements are entered 
in the record, so, if you would just talk to us, that would be 
great.
    Dr. Payne. Thank you, Mr. Chairman.
    Senator Bill Nelson. Thank you.
    Dr. Payne. During the Cold War, deterrence was typically 
considered an easy matter, posing a nuclear retaliatory threat 
to the Soviet Union and Soviet targets. Unfortunately, today, 
most of what we believed we knew about deterrence during the 
Cold War is of extremely limited value.
    Today, there are no certainties about deterrence. Our 
traditional deterrent may not work against opponents who are 
willing martyrs, desperate gamblers, incommunicado, 
miscalculating, or self-destructive. The painful contemporary 
truth, I'm sorry to say, is that confident assertions about how 
deterrence will work, and how many forces will ensure 
deterrence, are guesses. No one knows whether, or how, 
deterrence is going to work across the spectrum of opponents we 
now face and the spectrum of contexts in which we now want to 
deter.
    That particular conclusion doesn't suggest that we discard 
deterrence. Far from it. It does, nevertheless, explain why our 
deterrence focus needs to change from that of the Cold War with 
regard to: to whom is our deterrent directed, how do we deter, 
and with what do we try to deter?
    In some cases, nonmilitary options may be best for 
deterrence. In other cases, conventional, or even nuclear, 
threats may be necessary for deterrence. In some cases, we may 
simply have opponents, or confront components, who are beyond 
deterrence, whatever capability we might bring to the table.
    To understand which is the case, we need, first, to 
understand the opponent's mindset and behavioral style. I 
believe that deterrence now, in this post-Cold War era, is, 
first and foremost, a matter of intelligence. It requires a 
much more focused and dedicated intelligence effort for this 
purpose than was typical in the past. There is simply no 
substitute now for trying to understand the specific hows and 
whys of opponents' decisionmaking. That's true whether the 
opponent is a state leadership or the leadership of a terrorist 
organization.
    With regard to the deterrence of terrorists--this is an 
important new topic--let me note that I strongly disagree with 
the common notion that all terrorists are undeterrable. The 
historical record on terrorists, anarchists, and other 
extremist groups is sufficient for us to conclude that they may 
be deterrable, depending on the context and circumstances. 
That's all we can say about state leaderships, as well.
    What are the implications of this new uncertainty of 
deterrence in the post-cold-war period? First, I think, and 
foremost, is that defensive capabilities--the ability to limit 
damage to the United States, our allies, our friends, and our 
forces--takes on a much higher priority. Why? Simply because we 
can no longer rely on deterrence working reliably to provide 
that protection. A popular line during the Cold War was that 
defenses are unnecessary and useless, because our ``assured 
destruction'' capability would provide deterrence and perfect 
protection. It needs to be recognized now, in the post-Cold War 
period, that deterrence can, and probably will at some point, 
fail unpredictably, and our only option in that case will be to 
defend, as well as possible, our society, our forces, our 
friends, and our allies. This is why I believe that various 
forms of strategic defensive capability, particularly against 
weapons of mass destruction, have become such an important 
priority, more so than during the Cold War.
    The Bush administration's 2001 NPR sought to assess how the 
dramatic geopolitical changes since the Cold War should 
transform how we think and how we practice deterrence. I've 
included, for the record, a short article on the goals of the 
NPR, which, I'm sorry to say, still remains widely 
misunderstood. But with regard to nuclear weapons, the NPR 
concluded that they, in fact, remain essential to any prudent 
approach to deterrence, but that nuclear weapons alone are 
unsuited for many of the type of deterrence contingencies that 
we are going to confront in the 21st century. Having a broader 
array of deterrent threats, particularly including non-nuclear 
capabilities, should better enable us to adapt our deterrence 
to a whole range of different opponents and contexts. 
Consequently, one of the thrusts of the NPR was to reduce our 
reliance on nuclear weapons and to place greater reliance and 
emphasis on non-nuclear capabilities.
    The NPR also concluded that the immediate requirement for 
U.S. nuclear weapons could be met with far fewer deployed 
nuclear forces, and that the requirement for deployed nuclear 
forces may recede further as our advanced conventional forces 
mature and as our defenses mature. That conclusion, by the way, 
was a basis for the deep reductions of the 2002 Moscow Treaty.
    The NPR also focused on the need to assure allies, 
particularly through the extended U.S. nuclear umbrella. Most 
recently, some very close allies have openly questioned whether 
the longstanding U.S. ``nuclear umbrella'' commitment for their 
security remains credible and viable. A 2006 study, for 
example, led by former Japanese Prime Minister Nakasone, 
concluded that Japan should study the nuclear issue to be 
prepared in the event of tremendous future change. Former Prime 
Minister Yasuhiro Nakasone noted that Japanese security is 
dependent on U.S. nuclear weapons, and that the future of the 
U.S. extended nuclear deterrent is uncertain. Such Japanese 
concerns are obviously understandable given the North Korean 
nuclear and missile programs. I should note that allies and 
friends in the Middle East are expressing similar concerns as 
Iran moves towards a nuclear capability and expands its missile 
arsenal.
    What's the implication of that set of circumstances? What's 
the significance of that? Well, first, it's to note that our 
extended nuclear deterrent is perhaps the most important, and 
the least recognized nuclear nonproliferation tool in 
existence. To risk understatement, nuclear proliferation will 
accelerate dramatically if our close allies continue to lose 
confidence in the U.S. extended nuclear guarantee. This point 
has been made explicit by Japanese officials in recent 
conversations.
    As various nuclear reduction and disarmament proposals 
emerge, I think we need to be conscious of this continuing 
importance of our nuclear forces for extended nuclear 
deterrence and, in effect, for nonproliferation.
    There are three contemporary strategic programs that I 
believe are particularly important for the future of 
deterrence, extended deterrence, and the assurance of U.S. 
allies. Let me briefly mention these. One is the RRW, which Dr. 
Drell has mentioned already. The second program, or set of 
programs, are strategic and regional ballistic missile defense 
capabilities. The third is a new capability for non-nuclear 
prompt global strike.
    The RRW Program is intended to provide safety and security 
improvements in the nuclear arsenal, provide the potential for 
long-term increased confidence without nuclear testing, cost 
savings, the potential for long-term cost savings, and to 
sustain the U.S. nuclear, technical, and engineering 
communities.
    Let me add that there is some urgency with regard to this 
particular program because as we look at the retirement rate 
for people who have been involved in the design of nuclear 
weapons, it's estimated that the vast majority of them will 
have retired within the next 5 years. If we want to be able to 
have that group of experienced weapon designers offer their 
experience to a new cadre, a new generation, of weapon 
designers, we need to move forward in this program, I think, 
speedily.
    The RRW will also support the U.S. extended nuclear 
deterrent, and, thus, our nonproliferation goals, by helping to 
sustain the confidence that our allies have had in our nuclear 
umbrella.
    Also, second, in the era of deterrence uncertainty, 
strategic and regional ballistic missile defense are important 
for our own protection and for the assurance of our allies and 
friends who are subject to these emerging nuclear threats and 
missile threats.
    During the Cold War, many considered ballistic missile 
defense and deterrence to be mutually incompatible. Now they 
are fully compatible, and continued support, particularly for 
sea-based defenses, the multiple kill vehicle program, and a 
new third site in Europe, I believe to be very important.
    Finally, progress toward a non-nuclear strategic capability 
for prompt global strike has been slow, and, in general, 
progress towards non-nuclear strategic capabilities has been 
slow. At this point, the only U.S. global strike option now 
available is nuclear. The U.S. capability to strike with non-
nuclear forces against high-value or fleeting targets is very 
important. I believe it would make a significant contribution 
to deterrence, and, again, the assurance of our allies, and 
also to counterproliferation.
    In conclusion, there's been a significant shift away from 
the Cold War balance-of-terror concept and the policies that 
were aligned with that. That shift is important and makes sense 
because of the dramatically different geopolitical environment 
we find ourselves in. It is true that all the details of that 
shift have not been worked out, and its implementation is not 
mature. But let me note that it took us 25 years of intense 
debate before we came to a consensus on our Cold War strategic 
policies. We probably don't have 25 years of safety to reach a 
consensus on our post-Cold War policies. So, my final comment 
is that we need to move forward thoughtfully, but also quickly, 
towards that consensus.
    Thank you, sir.
    [The prepared statement of Dr. Payne follows:]

                Prepared Statement by Dr. Keith B. Payne

    The rise of hostile rogue states, new terrorist threats, and the 
proliferation of weapons of mass destruction have all highlighted our 
continuing need to deter attack. The importance of deterrence has 
survived the Cold War. The fundamental question now is how to deter new 
threats in a new strategic environment?
    During the Cold War, deterrence typically was considered a 
relatively easy matter of posing a nuclear retaliatory threat to Soviet 
targets. Many officials and commentators mechanistically equated 
deterrence to our ``Assured Destruction'' nuclear capability. We hear 
echoes of this today, confident claims about deterrence linked to some 
specific number of weapons.
    Unfortunately, most of what we believed we knew about deterrence 
during the Cold War now is of limited value. Today, there are no 
certainties about deterrence. Our traditional deterrent threat may not 
work predictably against opponents who are willing martyrs, desperate 
gamblers, incommunicado, misinformed, miscalculating, self-destructive, 
or motivated by unalterable, intangible goals such as honor, or 
ideological or religious devotion.
    The list of provocations and opponents we now hope to deter has 
expanded, and the contexts within which we hope to deter them are far 
more variable. But the painful contemporary truth is that confident 
assertions about how deterrence will operate are guesses, usually 
poorly informed; no one knows whether or how deterrence will work 
across a wide spectrum of opponents, stakes and contexts.
    This conclusion does not suggest that we discard deterrence. It 
does, however, explain why our Cold War views of deterrence 
``stability'' based on offensive nuclear forces must be reconsidered. 
Our deterrence focus now must be broadened with regard to whom, how and 
with what we try to deter. In some cases, non-military approaches to 
deterrence may be adequate, in others, conventional or nuclear threats 
may be necessary; and in some cases, opponents may simply be ``beyond 
deterrence'' regardless of our threats.
    To understand which may be the case for any contingency, we need 
first to understand the opponent's mind-set and behavioral style, and 
the different ways opponents can perceive and respond to our deterrence 
threats. Deterrence now is first and foremost a matter of intelligence. 
It requires a much more focused, dedicated intelligence effort for this 
purpose than has been the case in the past. There is no substitute for 
understanding the specific how's and why's of opponents' 
decisionmaking; we no longer can presume to know the boundaries of 
their possible behavior. This is true whether we seek to deter the 
leadership of a rogue state or a terrorist organization.
    With regard to the deterrence of terrorists, I strongly disagree 
with the common notion that all terrorists are undeterrable. The 
historical record on terrorists, anarchists, and other extremist groups 
is sufficient to conclude that they may be deterred, depending on the 
context and circumstances, which is all that can be said of state 
leaders.
    Defensive capabilities must take on a new, higher priority when 
deterrence is recognized to be uncertain. Why? Because we can no longer 
rely on deterrence working reliably to provide protection. A popular 
Cold War line was that defensive capabilities were unnecessary and 
useless because deterrence was ensured by our ``Assured Destruction'' 
offensive nuclear threat. It should be recognized now that deterrence 
can fail unpredictably, and our only option may be to defend as well as 
possible our society, our expeditionary forces, and our allies. This is 
why various forms of strategic defensive capability against mass 
destruction weapons are now so important. President Bush's decision to 
deploy strategic ballistic missile defense (BMD) against limited 
offensive missile threats was a reflection of this shift away from the 
old balance of terror deterrence policy. Much more remains to be done 
in this regard.
    The Bush administration's 2001 Nuclear Posture Review (NPR) sought 
to assess how the dramatic changes since the Cold War should transform 
how we think about deterrence. This can be seen in its emphasis on 
having a much broader range of deterrent threat options than we 
inherited from the Cold War, and having the flexibility and knowledge 
of opponents necessary to tailor our deterrent efforts to a range of 
contingencies and opponent. I have included for the record a short 
article on the goals of the NPR, a document that remains widely 
misunderstood.\1\
---------------------------------------------------------------------------
    \1\ Keith B. Payne, ``The Nuclear Posture Review: Setting the 
Record Straight,'' The Washington Quarterly, Vol. 28, No. 3 (Summer 
2005), pp. 135-151.
---------------------------------------------------------------------------
    With regard to nuclear weapons, the NPR concluded that they remain 
essential in any prudent approach to deterrence; but, nuclear weapons 
alone may be unsuited to many of the deterrence contingencies of the 
21st century. Having a broader range of threats, including non-nuclear 
options, should better enable us to adapt our deterrence policies to a 
much wider range of opponents and contexts. Consequently, a major 
thrust of the NPR was to reduce reliance on nuclear weapons and place 
greater weight on non-nuclear capabilities.
    The NPR also concluded that the immediate requirement for U.S. 
nuclear weapons could be met with far fewer deployed nuclear forces, 
and that our nuclear requirements may recede further as advanced 
conventional weapons and defenses mature. That conclusion was a basis 
for the deep nuclear reductions of the 2002 Moscow Treaty.
    The NPR also focused on the need to assure allies, including via 
the extended U.S. ``nuclear umbrella.'' Most recently, some close 
allies have openly questioned whether longstanding U.S. extended 
deterrence guarantees remain credible. A 2006 Japanese study headed by 
former Prime Minister Nakasone, for example, concluded that Japan, 
``should study the nuclear issue to be prepared in the event of 
tremendous future change. . .'' Mr. Nakasone noted that Japanese 
security is dependent on U.S. nuclear weapons, but that the future of 
the U.S. extended deterrent is unclear. Such Japanese concerns are 
understandable given North Korean nuclear and missile programs. Allies 
and friends in the Middle East increasingly express similar concerns as 
Iran moves toward a nuclear capability and expands its missile arsenal.
    Immediately following North Korea's nuclear test in October 2006, 
Secretary of State Rice traveled to Tokyo to reaffirm the U.S. nuclear 
commitment to Japan. Our extended nuclear deterrent is perhaps the most 
important and least recognized nuclear nonproliferation tool in 
existence. To risk understatement, nuclear proliferation will 
accelerate dramatically if close allies continue to lose confidence in 
the U.S. extended nuclear deterrent. This point has been made 
explicitly in recent conversations with Japanese officials. As various 
nuclear disarmament proposals emerge, we need to be conscious of this 
continuing importance of our extended nuclear deterrent.
    Despite the NPR's call for more diverse U.S. capabilities to meet 
the needs of a new geopolitical environment, much remains to be done. 
There are three contemporary strategic programs that are particularly 
important to deterrence, extended deterrence and the assurance of U.S. 
allies: these are the Reliable Replacement Warhead (RRW); strategic and 
regional BMD; and, a new capability for non-nuclear, prompt global 
strike.
    The RRW Program is intended to provide safety and security 
improvements in the nuclear arsenal, the potential for increased long-
term confidence without nuclear testing, long-term cost savings, and to 
sustain the U.S. nuclear technical and engineering communities. It will 
also support the U.S. extended nuclear deterrent and thus our 
nonproliferation goals by helping to sustain the confidence of our 
allies in our nuclear umbrella.
    In an era of deterrence uncertainty, strategic and regional BMD are 
important for our own protection and for the assurance of key allies 
increasingly subject to emerging nuclear and missile threats. During 
the Cold War, many considered deterrence and BMD to be incompatible. 
Now, they are fully compatible, and continued support for our sea-based 
defenses, the multiple kill vehicle, and a new defensive site in Europe 
are particularly important.
    Finally, progress toward non-nuclear strategic capabilities has 
been slow; the only prompt, U.S. global strike options now available 
are nuclear missiles. The U.S. capability to strike with non-nuclear 
weapons against high value or fleeting targets at global ranges could 
contribute significantly to deterrence, the assurance of allies, and 
directly to counterproliferation. I agree strongly with General 
Cartwright that it is important to move forward on a non-nuclear 
capability for prompt global strike.
    In conclusion, there has been a significant shift away from the 
Cold War balance of terror concept consistent with a dramatically 
different geopolitical environment. It is true that all the details of 
this shift in thinking about deterrence and its implementation are not 
mature. But, recall that it took 25 years of intense debate before we 
achieved a working consensus on our Cold War strategic policies. We may 
not have 25 years of relative security to achieve a new working 
consensus this time around; we need to move forward thoughtfully and 
quickly.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Bill Nelson. Thank you, Dr. Payne.
    Dr. Gallucci?

 STATEMENT OF ROBERT L. GALLUCCI, DEAN, EDMUND A. WALSH SCHOOL 
           OF FOREIGN SERVICE, GEORGETOWN UNIVERSITY

    Dr. Gallucci. Thank you, Mr. Chairman, for the opportunity 
to join this discussion of the future of our strategic nuclear 
forces.
    Mr. Chairman, let me start by providing what I think is my 
bottom line, and then work backwards to it. I think the bottom 
line for me is that the lower the level of our strategic 
forces, the better. The fewer, the better. If we can avoid 
qualitative augmentation of our forces, that would be better, 
too, for at least three reasons:
    The lower the number of nuclear weapons and delivery 
systems we have, the cheaper; the easier it is to secure these 
forces, the less likely we'll have a case of unauthorized or 
accidental use. This is all assuming that the reductions are 
accomplished together with the Russians, as Dr. Drell said.
    Second, if we can, in fact, lower force levels, we, and 
others who are nuclear weapons states, will more easily meet 
our obligations under the Nuclear NPT to engage in serious 
disarmament, and that is good for our efforts to discourage the 
spread of nuclear weapons.
    Third, and most important, and it is a theme for me, if we 
can continue to lower, to the absolute lowest levels, our 
nuclear forces, and avoid qualitative augmentation, we send a 
signal of delegitimizing nuclear weapons as an element in our 
force structure. That, over the long-term, is, in fact, I 
think, the most important thing that we can do.
    Let me go to the question of what we might use nuclear 
weapons for these days, because these days are different than 
past days. If I had two boxes, and in one box, I were going to 
put the threats that come from nuclear weapons, and then 
another box, threats that come from other sources that might 
require the use of our nuclear forces, let me say that, in the 
first box of nuclear threats, I can think of three, in 
descending order of importance, that you ought to consider. The 
first is the possibility that some terrorist group would 
acquire a nuclear weapon and use it against an American city. 
The second is that there might be an accidental or unauthorized 
launch of a nuclear weapon at the United States or an American 
ally. Third, that there might actually be the premedicated 
attack on the United States or an ally by a nuclear weapons 
state. Those are the three threats that I would propose to 
address.
    The first, the most likely, is that a terrorist group, al 
Qaeda or an al Qaeda cousin, would acquire a nuclear weapon and 
introduce it into the United States. It seems to me that that 
is a threat against which we have neither a defense nor a 
deterrent. It is unlikely that we'll, either now or in the near 
future, develop much confidence in our ability to interdict the 
unconventional delivery of a nuclear weapon crossing our 
border--by a shipping container, a truck, or a boat--that we 
will have that kind of control over our borders seems 
implausible to me. So, interdiction is unlikely.
    Deterrence, if your enemy values your death more than his 
life, is very difficult. So, neither defense nor deterrence 
seems like a way to deal with the most likely threat we 
confront over the next 10, 20, or more years. Therefore, we 
should be putting a lot of resources and energy into figuring 
out how to prevent these groups from getting either a 
manufactured nuclear weapon or the fissile material to produce 
one.
    That seems to me to lead us in a direction not only of 
trying to secure fissile materials, but also trying to figure 
out what we might use our nuclear forces for in connection with 
this threat.
    It seems to me that it is possible, if we are able to do 
two things--one is to attribute a nuclear weapon, either before 
it is detonated or after it is detonated, to its source--the 
weapon, or, more likely the fissile material--then we have the 
possibility of trying to persuade or convince any state that 
might consider providing that material not to do it, in order 
to avoid retaliation from the United States.
    Now, there are two scenarios that immediately occur in this 
connection, and one is that the material was actually 
transferred by a country that decided to sell or transfer it. 
Candidates might be North Korea or, in the future, Iran. The 
other case, perhaps more likely, is where there's not actually 
an intentional transfer, where there is what you might call 
``leakage.'' Material comes out of Russia, or it comes out of 
Pakistan. These cases present different sorts of problems.
    In the first case, I think a good old-fashioned classical 
deterrent threat is in order. That is to say that if we 
discover that a country has purposefully transferred fissile 
material or a nuclear weapon to a terrorist group, we ought to 
be telling them in advance that we will treat them as though 
they were the one who launched the attack, and they should 
expect devastating retaliation. In the other case, it's a bit 
more difficult, but I would suggest, as a matter of policy, 
that we say, if a country is found to have been the source of 
the material, even if it did not purposefully transfer it, but 
if it had, in a negligent way, failed to secure that material, 
that we will do the same thing; that is to say, to treat it as 
though it had launched the attack. The objective here is 
obviously to provide a little bit more incentive for that 
country to secure those materials.
    In neither case would I suggest we be promising a nuclear 
retaliatory response, but that response ought to be available 
to the President of the United States, and it ought to be 
credible.
    One more point on this most difficult case, and that is 
that it suggests the possibility that we might want to, at some 
point, consider a pre-emptive or preventive strike. Now, unlike 
retaliation, I don't believe--if we get into the world of 
needing to strike in a pre-emptive or preventive way--I don't 
believe that the use of a nuclear weapon would be appropriate. 
I think we ought to have a conventional force structure that 
permits us to launch such a strike in a conventional way. Even 
then, of course, it should be as truly a last resort. The first 
case.
    The second case, which I regard as not very likely, but 
plausible, is an accidental launch or an unauthorized launch. 
All I would say about that is that we should work harder in 
order to increase the amount of time it takes to launch a 
strike, to, in other words, change the alert status of our 
deployed forces so that this unauthorized or accidental launch 
becomes even less likely.
    The third case is the one that we typically use to size our 
forces and that is the need to have a deterrent to deal with 
the possibility of a premedicated strike on the United States 
or one of its allies. It is, to me, a very unlikely 
development, because I do believe deterrence has worked, and 
will work. All I will really say about this is that I would 
associate myself with Dr. Drell's comments. It seems to me hard 
to understand why we could not reduce our strategic nuclear 
forces to maybe half of what right now is the bottom number 
under the START arrangement with the Russians, which--I believe 
that number is 1,700--why some hundreds of nuclear weapons 
deployed aboard submarines, while maybe reducing the 
fractionation of the individual missiles to increase the 
survivability of the submarines even further, and continuing to 
maintain the ICBM force at lower levels, and continuing to 
maintain a bomber force, with both ALCMs and gravity bombs, and 
the Reserve Force comparably configured and sized, wouldn't be 
enough for this mission; and it would then go in the direction 
that I initially suggested would be good for lots of reasons, 
which is to say, to reduce substantially the amount of forces 
that we actually deploy.
    If it's the other box, though--if those are the three 
nuclear threats, there are other threats which this 
administration has alluded to in various statements and 
publications, and they go to other threats that the United 
States may be subjected to, particularly with WMD, that are 
non-nuclear--in other words, the biological or chemical weapons 
threats--where the United States might wish to use nuclear 
weapons.
    I am quite suspicious of this argument. I find all this 
suspect as an argument. Before one would use a nuclear weapon 
for these missions, one would have to have extraordinary 
confidence in our intelligence about these facilities and their 
status. After more than 20 years in government, focusing on 
just these problems, I rarely saw such a thing. I wonder 
whether we will, in fact, see such a thing.
    Then there's the question of why we would want to have 
special-effects weapons beyond those low-yield weapons which we 
now have. Presumably, we would want to have them, because they 
would enhance the credibility of our use, because an enemy, if 
I understand this correctly, would, in a sense, be trying to 
figure out our tolerance for collateral damage. The less 
collateral damage we anticipated, the more likely they would 
conclude it would be that we would use these weapons; 
therefore, the more credible the threat, if I have all this 
right. This seems quite a reach, to me. It is a reach, in a 
number of ways, about whether we could, in fact, develop 
smaller-yield nuclear weapons that meet both tests--i.e., do 
better at the destruction of these sites than do our current 
small-yield weapons--and which still do not produce the 
collateral damage that we would find so politically and 
ethically unacceptable.
    Now, on balance, when I look at the arguments, I am not 
persuaded that it is worth the cost to us, politically, in 
fielding new special-effects weapons. The costs in having us 
move away from the de-emphasis on nuclear weapons and move in a 
direction of trying to demonstrate to the world that they are, 
in fact, quite usable, if you're lucky enough to legitimately 
own them. That's not, in my view, a very good message to send.
    Finally, with some reluctance, I do want to make a comment 
or two about the idea of developing a new RRW.
    As I've understood this, this goes to the question of the 
durability of our confidence in the reliability of the current 
stockpile. It is, based upon my experience, passing strange 
that we would propose to improve this confidence by deploying a 
warhead, which we have not tested, to replace those warheads 
which we have tested. Now, if there are components that need to 
be replaced, and, therefore, the system, as Dr. Drell said, 
would not have been tested with the new component, I can 
understand that, to some degree. But I do ask the question of 
when, in fact, these components need to be replaced, and I do 
wonder what this program that we have spent so much money on, 
which I had understood was designed to put us in a position to 
have confidence in our stockpile in a no-test environment, 
actually accomplished.
    If, ultimately, we deploy a weapon that we have not tested 
and would find necessary to test to have adequate reliability, 
then I do believe we would have the worst of all worlds, and we 
would have demonstrated that we wished to, again, put a 
special-effects weapon, in a sense, in our inventory, and we 
would have to consider the prospect of testing, which I think 
would be truly damaging to the message which is most important 
to convey. I say again, that message is that we wish to de-
legitimize the use of nuclear weapons, the possession of 
nuclear weapons, and that message is something that we should 
seek to preserve.
    Thank you, Chairman.
    [The prepared statement of Dr. Gallucci follows:]

                Prepared Statement by Robert L. Gallucci

    I want to thank the subcommittee for this opportunity to address 
some of the issues related to policy options for the future strategic 
nuclear force posture of the United States. I would like to begin by 
addressing three types of threats from nuclear weapons, in descending 
order of importance, that confront our country: first, the threat of a 
nuclear weapon delivered by a terrorist group and detonated in an 
American city; second, the threat of an accidental or unauthorized 
strike on the United States by a nuclear weapons state; and third, the 
threat posed by a pre-meditated attack on the United States or one of 
its allies by a nuclear weapons state.
    The most likely threat comes from a terrorist group such as al 
Qaeda. If al Qaeda could acquire a nuclear weapon, few doubt that it 
would try to use it. Since it would deliver such a weapon by 
unconventional means--such as a boat, truck, or shipping container--we 
should not have much confidence in our ability to interdict this kind 
of a border crossing now or in the near future. Since al Qaeda members 
are known for valuing our death more than their life, neither should we 
expect to deter them. Lacking either defense or deterrence against this 
threat, we should put our energy and resources into preventing al Qaeda 
from acquiring either a manufactured nuclear weapon or the fissile 
material to make one. This means that we must persuade those countries 
with nuclear weapons or fissile material to secure them against 
unauthorized transfer--which we might call ``leakage''--and deter them 
from any authorized sale or transfer.
    For a variety of reasons, when it comes to leakage, we ought to be 
particularly concerned about Russia and Pakistan, and when it comes to 
intentional transfer, two different countries appear most worrisome, 
North Korea and, eventually, Iran. The question, then, is what policies 
should we adopt to persuade some countries to secure nuclear weapons 
and materials to our standard, and deter others form deciding to sell 
such weapons or materials. The first part of the answer is that we must 
develop the capability to identify the source of a nuclear weapon or 
the fissile material at its core, whether we should find it before 
detonation or have only the debris it produces to analyze after 
detonation. If we can accomplish this attribution with high confidence, 
through a combination of scientific forensic analysis and intelligence 
collection and analysis, and we can convince other countries that we 
can do this, then we can take the next step in persuasion and 
deterrence, that is, making a credible threat of retaliation. For those 
states that would intentionally transfer a nuclear weapon or fissile 
material, the deterrent threat is relatively straight forward, that is, 
to treat those countries as though they had launched the attack and to 
pose to them the prospect of devastating consequences, without 
excluding the use of nuclear weapons, if the United States or one of it 
allies should be the victim of a nuclear attack.
    For those states that we are concerned might leak a nuclear weapon 
or fissile material to a terrorist group, and fail to take actions that 
we regard as reasonable and prudent to secure their weapons and 
material, we should warn them also that we will treat them as though 
they were negligent and thus as though they had launched the attack. 
The American public would demand no less. In neither the case of 
transfer nor leakage would our response necessarily involve nuclear 
retaliation, but in both cases the President should have the option of 
a precise nuclear response with as little collateral damage as 
possible. Obviously, if we are to gain the advantage of what may be 
called ``expanded deterrence'' to prevent leakage, countries such as 
Russia and Pakistan must be told that we have adopted this posture.
    Beyond the missions of deterrence and expanded deterrence, we 
should also consider the force requirements of pre-emption and 
preventive war to deal with this threat. In contrast to a retaliatory 
strike, there is no reason to create the option to use a nuclear weapon 
to strike another country in order to prevent the transfer of fissile 
material or a nuclear weapon to a terrorist group, or to stop a country 
from even acquiring the capability to accumulate such weapons or 
material. But there is every reason to maintain the capability for pre-
emptive or preventive strikes in our conventional force structure, even 
though we should see such options as a last resort.
    This brings us to the second type of threat posed by nuclear 
weapons, that from the accidental or unauthorized launch of a nuclear 
weapon against the United States. Although this threat may arise from 
more countries in the future, for now it is almost exclusively one that 
is posed by Russian strategic nuclear systems. The best way for the 
United States to reduce the risk of such a launch would be to seek 
agreement with Moscow to measures that would, for both countries, 
reduce the alert status of our delivery systems, increasing the time 
required to launch strategic nuclear weapons.
    The third type of threat, a pre-meditated nuclear attack on the 
United States or one of its allies by another nuclear weapons state, is 
the least likely event, but the one which guides our thinking in 
determining the basic size and character of our nuclear forces, just as 
it did decades ago when we confronted a hostile Soviet Union with tens 
of thousands of nuclear weapons. Today, and for the foreseeable future, 
the only country against which our deterrent could conceivably be 
tested is Russia, and neither that country's intentions nor 
capabilities would seem to require the number of warheads and delivery 
systems which we plan to deploy and hold in Reserve in the future in 
order to maintain a high level of confidence in our deterrent 
capability. It is hard to understand why it would not be enough to have 
some hundreds of warheads on deployed systems--Trident submarines, with 
a reduced number of warheads per missile in order to increase range and 
survivability, silo-based intercontinental ballistic missiles, and 
bomber aircraft with gravity bombs and air-launched cruise missiles--in 
addition to Reserve Forces of comparable size and composition. In 
short, this classic threat would arguably require less than half the 
1,700 warheads permitted by the lower end of the range of deployed 
strategic nuclear warheads allowed under the Strategic Offensive 
Reduction Treaty. Those who argue that more is required of our 
strategic forces for this mission should be made to justify the 
assertion, without reference to any additional missions for our 
strategic nuclear forces.
    None of the three nuclear threats just identified justify increases 
in our nuclear forces, and indeed I am suggesting that they may be 
accomplished at lower levels of forces. If we can substantially reduce 
force levels, there are real benefits to the national security to be 
realized, particularly if matched by Russia, and eventually by others. 
Let me identify three such benefits. First, the fewer the warheads and 
delivery systems that are deployed and maintained in Reserve, the 
easier it would be to secure them against theft and against accidental 
or unauthorized launch, and the less the need for fissile material to 
field them. Second, if nuclear forces can be reduced, it would help 
address the obligation of the United States and other nuclear weapons 
states party to the Nuclear Nonproliferation Treaty to engage in 
serious disarmament. Third, and most important, lowering the level of 
nuclear forces demonstrates a reduced dependence on nuclear weapons to 
achieve legitimate security objectives, which in turn contributes to a 
critical international norm of de-legitimatizing the acquisition of 
nuclear weapons.
    The other missions that have been identified for our nuclear forces 
are meant to improve our ability to deal with rogue states or terrorist 
groups and, particularly their intention or ability to attack the 
United States with chemical or biological weapons. The idea seems to be 
that we can better deter attacks on us by having new, smaller yield 
(and thus more credibly usable) nuclear weapons to use against these 
states or groups, and that we can better defend against attacks by 
having special effects nuclear weapons that are more capable of 
destroying an enemy's buried chemical or biological weapons facilities. 
Both these propositions are suspect. First, we already have small yield 
nuclear weapons in our inventory to impress rogues and terrorists, if 
indeed they care about what we may regard as acceptable collateral 
damage. Second, serious questions have been raised about our ability to 
produce a nuclear weapon whose ability to destroy underground weapons 
production or storage facilities significantly exceeds that which can 
be achieved with existing nuclear or conventional weapons--without 
producing politically and ethically unacceptable collateral damage. In 
short, given the incentives to avoid additions to our nuclear force, a 
convincing case for nuclear weapons designed to attack these targets 
has yet to be made.
    If neither nuclear nor non-nuclear threats would require additions 
to our nuclear forces, and there are good reasons to try to reduce 
those forces, are there other reasons to consider augmenting our force 
posture? There are at least two more reasons that should be considered. 
One is a unique mission that is neither a case of classic deterrence 
nor defense; the other is the more general need to maintain confidence 
in the reliability of our nuclear forces without resorting to nuclear 
weapons testing.
    We have until now considered nuclear and non-nuclear threats to the 
national security that might require nuclear weapons for deterrence or 
defense. There is, in addition, at least one scenario in which we might 
wish to threaten the first use of nuclear weapons, or actually launch a 
first strike, in order to forestall the use of conventional forces 
against U.S. interests: it is the Taiwan contingency. It is possible, 
at some future date, that China will seek to resolve the status of 
Taiwan by the use of force and the United States would then want to 
prevent this outcome without engaging in a massive conventional war so 
far from America's shores and so close to China's. In such a scenario, 
the threat to escalate to the strategic nuclear level by launching a 
disarming first strike against Chinese strategic nuclear forces might 
be an option the United States would want to preserve or create. 
Indeed, current Chinese plans for modernizing its strategic nuclear 
forces are at least in part aimed at increasing their survivability 
against just such a first strike, that is, at creating a deterrent. Our 
current plans to deploy even a thin defense against ballistic missiles 
aimed at the United States further complicate China's plans for such a 
deterrent.
    The most prudent way to assess this scenario is in the larger 
strategic and political context. From such a perspective, it is 
profoundly in America's interest to maintain a nuclear force posture 
and a conventional force structure designed to meet our national 
security needs without ever resorting to the first use of nuclear 
weapons. While this proposition is relevant to some of the other 
missions envisioned for our forces mentioned earlier, it is most 
critical to addressing the China-Taiwan scenario because it bears 
directly on the motivation for Chinese calculations about their own 
strategic nuclear force requirements. In sum, our choice of policies 
for our strategic nuclear forces might some day be sensitive to Chinese 
strategic nuclear force deployments, but our legitimate defense and 
deterrent needs with respect to China can be met now and for the 
foreseeable future, at existing or substantially lower force levels.
    Finally, there is the issue of whether or not it is necessary to 
develop and deploy a new nuclear warhead so that we will be able to 
maintain confidence in the reliability of our nuclear forces for a 
longer amount of time than we otherwise might. Now, if such a new 
nuclear warhead were to be introduced to replace our existing, nuclear 
warheads, without first testing it, a serious question arises about why 
we would think it more reliable than the well-tested warheads to be 
retired. On the other hand, if the replacement warhead would eventually 
require testing in order to sustain the confidence we have in the 
reliability of our stockpile, then we should consider the implications 
of resumed nuclear weapons testing for our national security. Suffice 
it to say, that while many continue to argue against the benefits of 
our future adherence to a treaty banning further nuclear weapons 
testing--arguments which I do not accept--the disadvantages of 
eventually resuming the testing of nuclear weapons are undeniable. If 
there is a theme that runs through this presentation, it is that our 
Nation's security is best served by taking steps that de-emphasize the 
relevance and utility of nuclear weapons. Nuclear weapons testing 
undermines that proposition.

    Senator Bill Nelson. Thank you, to all three of you.
    Now, what we want to do is just have a conversation here.
    Senator Sessions?
    Senator Sessions. Well, I think we have our other 
colleagues here, and I'll be here a while, and they might have 
other----
    Senator Bill Nelson. Okay.
    Senator Sessions.--things. So----
    Senator Bill Nelson. Let's see, who came first?
    Senator Ben Nelson?
    Senator Ben Nelson. Yes, thank you, Mr. Chairman.
    Senator Bill Nelson. The other part of the full Nelson. 
[Laughter.]
    Senator Ben Nelson. Just down the hall from the other 
Nelson.
    Thank you, gentlemen, for being here.
    Dr. Drell, you commented in your written testimony, and you 
said it, as well, in your oral testimony, that over 40 
countries are pursuing nuclear technology. Now, in many cases, 
we believe--believe, and I emphasize that--it's for civilian 
power. But we all understand that once uranium has been 
enriched for peaceful purposes, it can, and is probably being 
harnessed for other uses that don't correspond with our desire 
for security. You argue that the both the U.S. and the Russian 
Federation should reduce their stockpiles. Of course, I think 
many would say that, in a world with so many countries desiring 
to join what you call the nuclear club, we shouldn't be 
reducing our stockpiles. So, where we have some people saying, 
as you are, that perhaps mutually reducing stockpiles would be 
beneficial, and others are now saying that's not the case.
    We know that we don't need a Cold War II, even though Cold 
War I is over, but how do you--what is the response that you 
really make to those who don't want us to reduce our stockpile 
because they believe we're really going to need this, with 40 
countries developing and no real capability, short of perhaps 
some sort of a launch against their locations, that we really 
do need to have a strong and robust stockpile?
    Dr. Drell. Thank you. My first comment is that the urgent 
need we have, at the moment, is to develop a process for 
gaining control of the enrichment process. When I say 40 
countries, I'm saying there are countries with nuclear 
reactors; they've bought them or they're using them. There are 
not 40 countries that can enrich uranium. So, the efforts which 
this administration has put forward, that President Putin has 
put forward, that the International Atomic Energy Agency, under 
Dr. ElBaradei has put forward, to gain control of the 
enrichment process, to try to guarantee a fuel for the reactors 
for peaceful research, but not have them develop indigenously 
the capacity to enrich uranium, so--in fact, the whole fuel 
cycle would be one that would be controlled. The mechanism has 
to be worked out politically, to what extent it's IAEA, to what 
extent it is nuclear nations. That is to be worked out. But the 
fact is--the key is to maintain control of the enrichment 
process, because without that, then, indeed, we are in great 
trouble. But----
    Senator Ben Nelson. Well----
    Dr. Drell.--then, for instance, when it comes to turning 
back--again, the question is, when we start reducing numbers, 
you have to ask how many targets there are for you--
    Senator Ben Nelson. Right.
    Dr. Drell.--because when you're talking about a country 
just beginning to develop an enrichment capacity or a few 
weapons, that doesn't present you with hundreds or thousands of 
targets. So, a careful balance of how many targets you have, 
and, therefore, how many warheads you would need. In our study 
that I mentioned, Dr. Goodby and I looked at the Russian 
problem; if they were to come down, and we looked at the 
targets of military control, political control, and of weapons 
that were mentioned in the NPR, we said, there, that there 
aren't more than a few hundred targets. That's how we came up 
with 500 deployed and 500 reserves. It's a quantitative 
question.
    Senator Ben Nelson. Well, that certainly would apply to, 
perhaps, the current situation with respect to the former 
Soviet Union, and particularly Russia, but, with other 
countries having the capability of enriching in the future, 
what does that say? How could we--if we reduce the stockpile, 
under what terms do we find that we might need to increase it, 
if, in 10 years or 20 years, the rest of the world, these other 
countries, are now into enrichment? I agree, controlling 
enrichment is a good part of it, but enriched uranium can still 
be sold, purchased, and get into the wrong hands. How will we 
be sure that we have enough stockpiled?
    Dr. Drell. Dr. Payne said it very well, we need a better 
intelligence system on these things. The intelligence challenge 
now is greater than it was during the Cold War.
    Senator Ben Nelson. Yes.
    Dr. Drell. So, the number--and one of the reasons I said we 
have to maintain an infrastructure--it's called Stockpile 
Infrastructure 2030 or something like that--is because we have 
to be able to respond, if the need arises, because the 
enrichment process gets out of control.
    So, there are a number of things we have to do. Have good 
intelligence, have the political process, with the cooperation 
of all the Nations that have signed the NPT--that's all but 
four Nations in the world, after all--have them cooperate with 
us in this effort to prevent the spread of the material with 
the additional verification requirements that we are working on 
to bolster the NPT. We have to maintain the weapons for 
deterrence. If the danger grows, if our effort to constrain the 
spread of the nuclear weapons material and enrichment capacity 
fails, indeed, we're going to have a larger stockpile.
    Senator Ben Nelson. Well, but won't we be violating 
agreements that we've entered into with others? Can we do that 
unilaterally?
    Dr. Drell. We hope to have agreements. At the moment, our 
agreements stand that by 2012 we will have between 1,700 and 
2,200 deployed strategic forces, and there's still a large 
number in back. I used a number of about 5,000. There is no 
specified number, but that seems to be the kind of number 
that's talked about and that both Russia and the United States 
have in the stockpile. Five thousand is an awful large number, 
when you consider the number of targets.
    Senator Ben Nelson. Okay. One further question, Mr. 
Chairman.
    Dr. Payne, in your written testimony, you commented on 
deterrence, and especially your views on non-nuclear 
capabilities, like prompt global strike. I appreciate those 
comments very well. I also agree with General Cartwright, who 
is the Commander of a Combatant Command of Strategic Command 
and Space Command, that we need this capability of prompt 
global strike. Senator Sessions and I worked, last year, on 
converting the Trident submarine to having non-nuclear 
capabilities, recognizing that time to act is short, and access 
may be denied or difficult. So, we really do have to be in a 
situation that requires a quick strike on a mobile ballistic 
missile launcher, for a high-value target, or whatever the 
situation may be, We do need that. We were unable to get it 
accomplished last year. If we don't convert Trident missiles 
for a prompt global strike, how long are we away from a 
strategic non-nuclear response, without that?
    Dr. Payne. General Cartwright has mentioned in testimony--
and I'll just use the numbers that he's presented--that, under 
normal circumstances, we would be 2 to 3 days away from having 
a non-nuclear capability, under the current situation; if we 
were very fortunate and had forces generated and in the area, 
we might be as little as a day away. So, the distinction in the 
timelines is fairly important. If there is a fleeting target or 
a very urgent target that needs to be addressed in a timeframe 
shorter than 1 to 3 or 4 days, then this capability is 
essential.
    Senator Ben Nelson. Thank you very much. I appreciate it. 
Thank you, Mr. Chairman.
    Senator Bill Nelson. Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Dean Gallucci, when you were discussing the hardest cases, 
some type of terrorist getting hold of material, what we have 
to do, and what would be helpful, is if we could identify the 
source of that material, which leads to this issue of the 
forensics of the nuclear material. Is it possible to catalog 
the source of nuclear material, from a technical sense, so 
that, at least conceptually, we could identify, and then, 
having identified, be able to attribute that to a nation-state 
or some entity that we could deter or at least retaliate? Is 
that possible?
    Dr. Gallucci. Senator, what I think I know about this is 
that the answer is pretty clear, that we have some signatures 
we have collected over decades that would allow us, for 
example, in the first instance, if you don't have an unexploded 
weapon, but you're essentially in the business of analyzing 
debris, you could tell whether it was a plutonium core or 
whether it was a uranium core. If it was a uranium core, you 
might be able to quickly tell whether the uranium was enriched 
in a diffusion process or a centrifuge process. If it was 
plutonium, you might be able to, through an analysis of the 
ratios of the isotopes, figure out what kind of reactor, and 
maybe even which reactor, the plutonium was produced in. So, 
there are a lot of ifs here, but you might be able to get to 
the point of identifying the source of the material. It did not 
help that A.Q. Khan played Johnny Appleseed with a particular 
kind of centrifuge and spread it hither and yon so that you 
would get a similar kind of signature from that uranium. But 
the bottom line here is, our laboratories are working on this. 
They're prepared to do this, if necessary. We have some chance 
of this, and we have begun to talk about this, because, if we 
want to gain deterrence, the bad guys need to know that they 
might get caught.
    Senator Reed. So, I assume that your view would be this 
would be a very worthwhile effort to pursue internationally, to 
try to develop a regime in which the producers of nuclear 
material are, either by self- declaration or inspection, sort 
of, list the products on the label so that if something goes 
off, we know.
    Dr. Gallucci. Yes. The idea of an inventory would, of 
course, have a lot of benefits to it. We'd have to worry about 
spoofing in the course of doing that. But, yes, I think 
everything we could do to be able to trace material back would 
be of benefit.
    Senator Reed. Is this bought--supported outside the United 
States? I mean, are there international agencies and other 
countries who say, ``We understand this is important, let's do 
it''?
    Dr. Gallucci. I'm sorry, Senator, I really don't know that. 
That probably is knowable, but I just don't know it.
    Senator Reed. Right, okay. Very good. I don't know if 
anyone else has a comment, but----
    Let me turn to the Moscow Treaty, which is mentioned by Dr. 
Drell and others. It does call for a reduction by 2012, but the 
treaty is nonbinding, there's no duration, it's nonverifiable. 
Each side's free to determine when something's nonoperational, 
operational, and the question is, should the treaty be 
modified? Also, is it possible, within the scope of the treaty, 
to accelerate the reduction of the deployed nuclear weapons? I 
mean, this is one of those things that was announced with great 
fanfare a few years ago, and then suddenly it's ancient 
history. So, Dr. Drell, and then Dr. Payne, if you'd comment?
    Dr. Drell. It is an unusual feature of that treaty that it 
has no verification requirements written into it. On one hand, 
you can say that shows an evolution from a Cold War 
confrontation with an adversary to treating the Russians, now, 
more like England and France. You have to ask how far you want 
to go that way. I'm always comfortable when one has crisp, 
specific verification procedures, I have to say. How the 
evolution to a more cooperative relation should go 
politically--I'm a physicist, and I leave the strategic 
political judgment on how the governments are getting along to 
Washington. I have a little feeling that it's progress if we 
have a relation with Russia that does allow a certain element 
of trust. But, the bottom line, you have to verify.
    We certainly could make more rapid the implementation of 
the Treaty of Moscow provisions. We could, for example, 
deactivate weapons that are being decreased out of the line. We 
could agree that, of the weapons that are in the 5,000, but not 
the deployed 1,700 to 2,200, we could agree that we don't need 
that many of them. We could look at the remaining battlefield 
weapons, the tactical weapons, forward deployed in Europe, and 
decide whether those couldn't go. That really is a basis--a 
matter of political judgment of how our strategic relations 
with the Russians are going. Are they working cooperatively as 
our partner, as they seem to be onboard in North Korea and now 
in the Iranian discussion, or are there problems? I'm not an 
expert there.
    Senator Reed. Dr. Payne?
    Dr. Payne. Yes, sir. The treaty is binding between the two 
parties. It's not a nonbinding treaty. The requirement to 
reduce, by approximately two-thirds, the number of deployed 
nuclear forces is in the treaty, and will have to be abided by 
2012.
    The question about accelerating reductions, the answer is, 
yes, sir, reductions can be accelerated. In fact, that was 
mentioned specifically by the U.S. in 2002. Indeed, part of the 
presentation of the NPR showed periodic assessments of the 
situation, the geopolitical situation, so that if the 
geopolitical situation was such that those reductions could be 
accelerated, we could go ahead and pursue that.
    Another question, another factor, as to whether those 
reductions could be accelerated was how well the United States 
was doing with regard to the development and deployment of 
advanced conventional forces and defensive capabilities. If we 
were progressing and maturing smartly towards advanced 
conventional and defensive capabilities, the thought was there 
may be enough mitigation of risks so that those reductions 
could be accelerated.
    Another factor is the political condition. Looking out over 
10 years, at that time, no one felt comfortable that their 
crystal ball was good enough to be able to predict what the 
geopolitical relationship would be like 10 years down the line. 
So, again, the idea was that we would have periodic assessments 
of the situation so that those reductions could be accelerated 
if the political conditions called for it.
    The last point, I guess, of the question had to do with 
verification. Let me note, because it wasn't noted earlier, 
that the verification regime was to be derived from the 
existing START regime, with extensive verification provisions. 
That, then, really leads to the question that was brought up 
earlier this morning, and that is, what about START after 
2009?--because the verification provisions for the Moscow 
Treaty are embedded in START. So, the real question isn't that 
there's no verification. There's considerable verification for 
the Moscow Treaty. The question is, what happens to START after 
2009, and to those pertinent verification provisions?
    Senator Reed. That would suggest, when START expires, in 
2009, we could think about modifying the existing treaty, the 
Moscow Treaty.
    But one of the problems, I think, with the Moscow Treaty is 
that there's no timetable, there's no necessity to reduce any 
single weapon until, I presume, 2012, when the term of the 
treaty expires. So, literally we could be sitting, at 11:59 on 
the last day and, I guess, announce that we're reducing all our 
weapons, but then, the next day, the treaty's expired, and 
there's no legal binding requirement to make this reduction. In 
other words, it's a rather odd arms-control treaty. Also, my 
sense is that nothing is really taking place. I don't notice 
any action between the United States and Russia to begin 
serious discussions to--even a symbolic reduction of weapons. 
So, it is somewhat troubling.
    Let me just go back to one question that was raised 
previously by Senator Nelson, and that is the discussion about 
taking conventional weapons and putting them on Trident 
submarines. Dean Gallucci, do you have a notion about that?
    Dr. Gallucci. Senator, I think everybody knows that there 
are two contending values here. One is that I, like everybody 
else, would like to have the capability--be able to accomplish 
this mission of a prompt conventional strike against a 
fleeting, but important target. Then the other good is, of 
course, never to plan to do anything that--to accomplish that 
first mission--that might be misconstrued as the initial launch 
of a first strike from a strategic system. So, I come to this 
with enormous skepticism, and would want to be completely 
persuaded that in no such circumstance would we be attempting 
to do this and running any risk of being misunderstood. I think 
there are political disadvantages to it, too, but I am, if you 
can catch the tenor of my voice here, hesitant about this. I 
guess, at this moment, I would say I am still unconvinced, but 
that may be because of my own ignorance. I worry a great deal 
that we not get into a situation in which a submarine on 
station and from a particular box launches a strike which now 
the Russians, later the Chinese, view as a pre-emptive strike, 
depending, of course--this all depends upon what the context 
is--for example is it a crisis context, a context that goes 
beyond the target state to other states? It is just such an 
enormous concern that it has to be addressed. If it is 
absolutely put aside, and there is no downside, from that 
perspective, then, of course, as a mission, I would like us to 
have that capability.
    Senator Reed. Dr. Drell?
    Dr. Drell. May I make a short comment on that?
    Clearly, there are some needs for prompt global strike in 
the world. I would make three technical comments.
    The first one, and most important, is what Bob Gallucci 
just said, there must be no ambiguity that the system is non-
nuclear. So, the idea of mixing the loadings of a Trident sub 
seems to me the worst possible danger. If you can do it 
clearly--this is a non-nuclear system--I think that's 
essential.
    But there are two other technical points which I think need 
to be looked at. We're talking about something that's prompt. 
We're going to get it in less than a day. We're going to get it 
in an hour or so. That means we must be able to locate it, at 
all times if a mobile target, with precision, because a 
conventional warhead, a few hundred pounds of high explosive 
does not have a very large kill radius, and you're talking 
about sending something thousands of miles, and getting very 
precisely accurate. One has to be sure that the target position 
location can be, in realtime, established that way. I think one 
wants to, but that's not an easy order. That's not impossible. 
It's not an easy order. It's a technical demand that has to be 
addressed and understood before one thinks one has anything.
    The other thing is, the United States is a global power 
with bases around the world, and there are other technologies, 
including drones and other systems, that are nearby. Again, one 
has to ask the alternative advantages and disadvantages.
    So, I think these are legitimate questions. They're hard 
questions. But the lack of ambiguity in what we're doing, non-
nuclear, is, to me, overwhelming.
    Senator Reed. Dr. Payne?
    Dr. Payne. Yes, sir. Let me just comment briefly on the 
concern over the possible Russian response to an at-sea launch 
of the conventionally-armed Trident, because this question was 
thought through at great length, with, I think, reasonable 
provisions to mitigate the possibility of a Russian 
misinterpretation.
    But with regard to that question, let me just mention that 
the United States has, according to all the unclassified 
sources, over 1,100 at-sea launches of submarine-launched 
ballistic missiles (SLBM) in the test program over the years. 
Through 1988, we had no notification provisions to the Soviet 
Union. After 1988, we had notification provisions established, 
and we carried through with those notifications to the Soviet 
Union that we would be launching a SLBM in the appropriate 
timeframe, in the appropriate direction. So, there's a long, 
long history of U.S./Soviet and now U.S./Russian relations with 
regard to notification for the safe launching of non-nuclear 
ballistic missiles, and there's been no problem, there's been 
no misinterpretation, there have been no problems such as folks 
have mentioned with regard to a possible Russian 
misinterpretation.
    I wouldn't be as confident in this, other than I look back, 
with 1,100 launches, open-sea launches of SLBMs, and we have 
provisions, since 1988, of notifying the Russians--Soviets 
then, Russians now--in that regard, as do the British have 
provisions for notifying the Russians with regard to their at-
sea launches. So, I understand the concern. I agree we need to 
absolutely minimize the concern of a Russian misinterpretation. 
I'm also confident that we've already gone a long way towards 
that over the last 40 years.
    Senator Reed. I thank you. Just a final comment. You've 
been most kind, Mr. Chairman. Given the emergency circumstances 
where a missile like this would be launched, and particularly 
not in a designated range where these other tests have taken 
place, it might be very difficult to notify even our senior 
command of this decision, let alone the Russians. It would be 
unusual, by definition, and I'm not as sanguine about the 
record of test launches and ranges. I went on a D-5 shoot off 
of Cape Canaveral, which the--you could tell--and it's 
boilerplate, and the Russians have seen it for years and years 
and years. This would be, I think, something much, much 
different, probably a surprise to many people in the Department 
of Defense, not only the Russians.
    Mr. Chairman?
    Senator Bill Nelson. Well, assuming that you could get over 
that threshold of it being understood that this was not a 
nuclear launch, the question left hanging is the question of, 
does it offer a deterrence to a state or a nonstate actor?
    Dr. Payne. Yes, sir. I believe that a prompt global strike, 
the conventional Trident or an alternative, could provide 
enormous deterrent advantages, including for extended 
deterrence. Let me give you a couple of reasons why.
    First, one of the factors that contributes to the assurance 
of our allies is the notion that the United States can be 
promptly involved if, in fact, they suffer from an attack. This 
capability would certainly signal very quickly, that the United 
States was involved in their security on their behalf, and the 
anticipation of that should have a deterring effect on 
opponents, foes of our friends and allies, who think that the 
United States might be able to either stay out entirely, might 
stay out entirely, or might be out long enough for them to 
create a fait accompli. So, I see this prompt global strike as 
being very helpful with regard to deterrence, particularly 
extended deterrence.
    In addition, we know that, for example, the PRC sees 
conventional ballistic missiles as what they call their 
``pocket of excellence,'' an area they excel in. For the United 
States not to be involved in the capability that they put so 
much store on is, in a sense, an incentive to move forward in 
that direction for folks that we might prefer to move in other 
ways.
    So, I see the prompt global strike being useful for 
deterrence, being useful for now what's called dissuasion, 
trying to suggest to folks that they not move in those 
directions, because it's not an open avenue for them to have a 
pocket of excellence.
    Senator Bill Nelson. What do the other two of you think 
about that, the question of the deterrence?
    Dr. Gallucci. I don't think, even if we were completely 
free of our concern about the ambiguity of a strategic nuclear 
strike by using a Trident submarine for the launch, that I 
would be doing this for deterrent reasons. I think that I'd be 
doing it for strike reasons. We might get some deterrence out 
of it; and the promptness is something that we would value. In 
certain circumstances, we might be able to do this with 
deployed forward forces, with cruise missiles. I think we 
shouldn't overstate how much we're going to get from this. I 
don't think countries that are thinking of developing secret 
nuclear facilities or moving something from here to there are 
going to decide not to do it because there's a submarine 
somewhere on the planet that might strike them. I just think 
we're asking a little too much of this to do that.
    Dr. Drell. I find it mainly a strike weapon, not a 
deterrent weapon. There are not many targets I can think of 
that are so important you have to get them within an hour, as 
opposed to a day. I think if we go--move to a world where we're 
all going to have 30-minute strike capabilities halfway around 
the world from each other, it's not really the world I'd like 
to see us trying to develop. I would rather see us realizing 
that there is certain--value in time to think things through. 
But----
    Senator Bill Nelson. Senator Sessions?
    Dr. Drell.--I'm not enamored with this weapon.
    Senator Sessions. I get worried about all these things. 
I'll tell you what troubles me. So, in the next 5 years, we're 
going to have reduced the size of our nuclear stockpile down to 
numbers we haven't seen in 50 years, at the beginning of the 
Cold War. But I--the critics say, ``That's not enough, we ought 
to go down to 500, or maybe less.'' Strategic Command develops 
a proposed substitute, non-nuclear global strike capability to 
substitute for nuclear strike capability, with the conventional 
Trident modification. The critics say, ``No, that's risky.'' 
The Nuclear Weapons Council approves continuing study of a 
replacement warhead that would be safer, more reliable, and 
more secure. We could replace aging warheads with the same 
capability, because they're more reliable, perhaps have fewer 
of them. But critics are saying, ``Well, we should stay out of 
the business of manufacturing warheads.'' We observed China 
take out one of its own satellites. We worry about strategic 
vulnerability of our space assets. It would seem to make sense 
to study whether defensive capabilities could be deployed on 
satellites to protect them. The critics decide that defensive 
capabilities look too much like offensive capabilities, and so 
we shouldn't have weapons in space, and they oppose that. I 
would just say to our witnesses, we have a lot of challenges 
out there. The objective of reducing nuclear dangers has a--and 
the number of weapons, certainly has an appeal. We would like 
to do that. But, continuing forward, as the ``Caucus of No'' 
would say, does not, in my view, advance our national security.
    I think I would just ask you, maybe, to comment on that, 
and to comment on whether or not the reduction of our own 
stockpile and our self-imposed restraints--that are very costly 
financially, too, on occasion--are actually causing other 
nations not to develop nuclear weapons, or to reduce their 
capability, or cause nations not to develop a nuclear 
capability at all. Is that helping in any way? My time is 
short, I've rambled on. But, I mean, that's the fundamental 
question, to me, as a person who feels a responsibility to 
defend this country. Where are we heading, Dr. Gallucci?
    Dr. Gallucci. When you read that litany of charges, 
essentially, I want to immediately leap and say, ``Please do 
not confuse me with an advocate of unilateral disarmament or a 
pacifist.'' I spent my career in government service, in 
political/military affairs of various kinds, and I'm----
    Senator Sessions. I would just say that we voted down--
Congress voted down the penetrator--actually, research on the 
penetrator, and they voted down the prompt global strike non-
nuclear system last year. So, we're in a deal here.
    Dr. Gallucci. But, having said what I said, I have argued 
here for the lowest appropriate levels of forces, which is to 
say half of the 1,700 might do, and Professor Drell was talking 
about 500 deployed, 500 reserved--that's still a lot of nuclear 
weapons, with a lot of capacity for destruction. It has been 
classic for the United States to be worried about how much is 
enough. So, I think we can all be in that game of trying to 
assess how much is enough--trying to puzzle out what's 
appropriate and look at what missions we want these weapons 
for. I think that's what we're doing here.
    I think suspicion of a particular weapon innovation really 
has to do with the instinct, which I really want as my takeaway 
from today from me, and that is instinct that we do not wish to 
call attention, internationally, unnecessarily, to nuclear 
weapons as an essential portion of a legitimate national 
defense establishment. We need nuclear weapons now--first and 
foremost, as a deterrent, so that others do not use them. If 
you ask all three of us, ``is it a terrific idea to absolutely 
promise we will never use nuclear weapons first?'' I don't 
think any one of us want to say, ``we'll promise that,'' but we 
want to get to the point where we're able to accomplish our 
missions through the use of conventional forces, and the 
nuclear weapon is for a deterrent, and it's for retaliation for 
the use of a nuclear weapon, and that's it.
    So, I think in each or many of the points that are made in 
the statement you made, Senator, my reaction is that we ought 
to be looking very carefully at the RRW. A lot of this is quite 
technical, and questions of when, in fact, components of the 
existing nuclear weapons may deteriorate and reduce our 
confidence and reliability--how much time do we have? Is this 
weapon actually going to increase our confidence if it is for 
all time, an untested weapon? I have no way, independently, of 
assessing that, but I know that, in the end, I want us to get 
to a point where we do not need to test, that we're confident 
in the reliability of our systems without testing, so that we 
can comfortably adhere to the Comprehensive Test Ban Treaty 
because of what that would mean politically as, again, a signal 
that we wish to de-emphasize the use of nuclear weapons for 
purposes other than deterrence.
    So, this all goes, I think, to one's body posture. If there 
is a critique of what the administration has been putting 
forward in its various initiatives, it is the embrace of 
nuclear weapons for new missions, when we are looking to move 
away from the use of nuclear weapons to accomplish those 
missions. I think----
    Senator Sessions. Well----
    Dr. Gallucci.--that's the rub.
    Senator Sessions.--I think body posture is--may be a factor 
that we certainly ought not to lose sight of, but I believe 
these nations are deciding, for their reasons. Iran is 
deciding, not on our body posture, but on--they've been working 
for a long time to have a nuclear weapon. Iraq was, had they 
not been stopped during the first Gulf War. Saudi Arabia, what 
are they going to do if Iran gets weapons? What about Egypt? 
What about Turkey? What about other countries? So, I'm not sure 
all that's happening because of how we handle ourselves.
    But, Dr. Drell and Dr. Payne, if you'd just briefly respond 
to that. I know my time is a bit short.
    Dr. Drell. Senator, I have devoted a lot of my life to 
concern about American security. I'm not a disarmer, I'm not a 
``no-first-use-er,'' but I want to say, as a technical person, 
we have to make the right choices. First we have to do what's 
practical, and, second, we have to see how what we do may be 
interpreted elsewhere.
    When I looked at the earth-penetrator discussion, and I 
commented on it, to me the value of an earth penetrator was 
extremely limited militarily. If I want to get a deep 
underground target, I have to know where it is. Precision and 
accuracy of location and delivery means much more than just 
penetrating and then getting an order of magnitude more of the 
energy. We have big weapons that can get underground. We have a 
number of big weapons. We didn't need that weapon, and it 
wouldn't do us much good. It would, however, affect how our 
efforts at maintaining a nonproliferation regime are going to 
be seen, not by Iran or North Korea, but by the 185 nations who 
signed the NPT and have said, when they extended it into the 
indefinite future, ``We have to, ourselves, accept some of the 
restraints. We have to work toward the comprehensive test ban. 
We have to work towards reduction,'' because that's embedded in 
the treaty we have to use for their cooperation in trying to 
prevent this spread.
    When I talked about the RRW, I said, ``We need an 
infrastructure to be able to respond and maintain nuclear 
weapons,'' but I said, ``Don't go ahead and build an RRW, when 
you don't know''--and I don't believe any technical person can 
honestly say that we can make a safer, more reliable, more 
effective weapon without testing it. Until you know that you 
can do that, it's a waste of money and it's a politically 
provocative thing to do. I want to--and I recommend--let us get 
a serious consensus built among the weapons labs. There's a 
report coming out, headed by a former weapons-lab leader, Dr. 
Tarter, which has been discussed--it's not fully released--
saying exactly what I said.
    So, I am not a disarmer, but I believe we have to do 
sensible things. I think it's important that we look at what 
other countries do, because I think getting rid of nuclear 
weapons as part of our policy is important, and I haven't given 
up on that.
    I remember President Eisenhower saying so movingly, ``the 
United States is determined to help solve the fearful atomic 
dilemma, to devote its entire heart and mind to finding the way 
by which the miraculous inventiveness of man shall not be 
dedicated to his death, but consecrated to his life.''
    President Reagan, the most extreme nuclear abolitionist who 
was ever President of this country, said, before he was 
President, during his presidency, and after, he said--he called 
for the abolishment of all nuclear weapons, which he 
considered--I'm quoting him--``totally irrational, totally 
inhumane, good for nothing but killing, possibly destructive of 
life on Earth and civilization.''
    To my mind, we have to make the right technical decisions, 
and I support them, but we also have to be careful how the 
political effort that you gentleman make are going to be seen 
around the world, and help push forward a nonproliferation 
regime.
    Senator Sessions. Dr. Payne?
    Dr. Payne. Yes, sir. I agree with Dean Gallucci, that the 
lowest number of nuclear weapons compatible with security 
should be our goal. In fact, that's the goal----
    Senator Sessions. I'm pretty frugal. I agree with that, 
too. I don't----[Laughter.]
    Dr. Payne. In fact, that's the----
    Senator Sessions. From a money point of view; I'm not sure 
it's going to affect the psyche of some other nation, but--
    Dr. Payne. Yes, sir. That's, in fact, the same goal that 
the President gave to us, in the Department of Defense, as we 
were pursuing the NPR, the lowest number compatible with 
national security.
    So, then the question becomes, What's that lowest number? 
Let me just make a couple remarks in that regard.
    First, with regard to President Reagan's vision of 
denuclearization, let's not forget what the other half of his 
vision was. That is, the condition of excellent, outstanding 
defensive capabilities for the United States, its friends, and 
its allies. It wasn't nuclear--a nuclear-free world in the 
absence of those defenses; it was a potential for a nuclear-
free world in the context of those defenses. So, as we think 
about these visions of moving forward, let's not get out of 
sync if we're going to use President Reagan as the model of how 
we want to talk about this.
    Second point concerns the notion that the lower we go with 
regard to nuclear weapons, the more capable you are of de-
legitimizing nuclear weapons for others; that's essentially the 
notion that we've talked about. Let me just note--and I tried 
to represent this in my prepared remarks--that if lowering 
numbers of nuclear weapons de-legitimizes our--the credibility 
of our extended deterrent, then that's going to promote 
proliferation. It's not going to prevent proliferation, it's 
going to promote proliferation, because our extended deterrent, 
as I mentioned earlier, is, I believe, the single most 
important nonproliferation tool in existence. To maintain the 
credibility of our extended nuclear deterrence is the single 
most important thing we can do to contribute to 
nonproliferation. The example that I used earlier is the 
concern that the Japanese now have over the threat that they 
face and the U.S. extended nuclear deterrent. Japanese 
representatives have now been explicit with regard to what that 
means for them and the possibility that they might be 
interested in a nuclear weapon. So, that connection between our 
extended nuclear deterrence and nonproliferation is profound, 
and its importance for our nonproliferation goal, I think, 
cannot be overstated.
    Let me suggest the next point, and that is, I don't 
believe, for a moment, that lowering our levels of nuclear 
weapons is going to have a positive effect on so-called rogue 
states and their desire for nuclear weapons. Remember, when we 
think about trying to engage in nuclear nonproliferation, 
trying to get states that don't want to have nuclear weapons in 
the first place, or cannot have nuclear weapons isn't the hard 
problem; the hard problem is trying to move states who want 
nuclear weapons away from having them. Those, in the 
contemporary world, look like Iran and North Korea. Those are 
the states of concern. They don't want nuclear weapons because 
we have nuclear weapons. They don't mimic us, in that sense. 
They want nuclear weapons for lots of reasons of their own. 
Whether we have an arsenal that looks like 1,000 weapons or 
4,000 weapons, I don't think is going to have a bit of an 
effect on the desire for--by either Iran or North Korea to have 
nuclear weapons.
    Senator Sessions. If we had negotiations with North Korea, 
and we cut our numbers down to 500, and they had 300 or 250, 
wouldn't that change the tenor of those negotiations?
    Dr. Payne. Sir, remember that the----
    Senator Sessions. Then, if they got to 500, wouldn't that 
be somewhat different, also?
    Dr. Payne. Yes, sir, it would. If you look at the reason 
why they want nuclear weapons, to the extent that they discuss 
it, it has much more to do with our conventional prowess, which 
is second to none in the world. They want nuclear weapons, in a 
sense, to be able to trump our conventional capability. It has 
nothing to do with the nature of our nuclear arsenal.
    Then, lets just conclude--and I appreciate the time, sir--
it is that we don't know the future. One of the reasons to be 
careful about nuclear reductions is because we don't know the 
future. If we give up force structure now, it's going to be 
extremely hard, and extremely expensive, to ever get that force 
structure back. If my crystal ball were good enough to say it's 
going to be a benign future, we know Russia's going to move in 
a good direction, we know China's going to move in a good 
direction, then we could commit to these kind of reductions 
that are being discussed. But no one's crystal ball's that 
good, and, in a sense, we need to retain the force structure 
now to be able to reconstitute if the future moves in a less 
benign direction, because if we give up that force structure 
now, as I said, it'll be very expensive and very hard to ever 
get it back.
    Senator Sessions. I think those are good comments. I 
certainly would like to keep our numbers down. But I don't want 
a major misconception to occur in the world that somehow this 
country lacks the will to use the power we have to defend this 
Nation, and that anybody that steps over a certain line is 
subject, in itself, to assured destruction. I mean, I think 
that's just where we are. We need to have that. I worry a 
little bit that everything that's proposed in the strategic 
area is opposed, and we have a hard time passing it.
    I would note that we really are reducing our weapons. You 
go out to the Pantex plant in Texas, and there are warehouses 
and warehouses and bins of dismantled and destroyed warheads. 
We're melting down those things. We really are making a 
historic move. I would note, for the record, that there's no 
special-effects nuclear-weapons proposals to develop that now. 
The robust nuclear earth penetrator was not funded. Congress 
did not accept that. The RRW conceptual design selected is very 
similar to the historical designs, and has a connection 
pedigree to hundreds of nuclear weapons tests conducted in the 
1950s and 1960s. So, I think we probably could do that without 
testing.
    But I would just say, Mr. Chairman, I think it's a healthy 
discussion. It is a healthy discussion. I would maybe ask, with 
a follow-up written question--my time is limited--but, what 
about the Triad? How much of that is still necessary today, the 
money that's spent there? Is there some better utilization of 
that for our national defense?
    [The information referred to follows:]

    I believe that the current Department of Defense (DOD) strategy for 
the nuclear triad makes sense. The DOD has reduced the size of each of 
the legs of the nuclear triad and is making the remaining force 
structure more flexible. For example, since the beginning of this 
administration, the DOD has reduced the number of deployable ballistic 
missile submarines from 18 to 12 (4 have been converted to cruise 
missile submarines, 2 will typically be in overhaul and unavailable for 
deployment). To add flexibility to the remaining ballistic missile 
submarine force, DOD has proposed developing and deploying precision 
conventional warheads on some Trident missiles on each of the deployed 
submarines. The size of the long-range bomber force has also been 
reduced. The size of the remaining bomber force is based on needs for 
conventional weapon roles in major combat contingencies. In addition, 
the ICBM force has been reduced in size; all Peacekeeper missiles have 
been retired. Only one type of ICBM--the Minuteman III--remains. A 
nuclear triad at much lower combined force levels than existed during 
the Cold War makes sense. But the many good reasons for maintaining a 
nuclear triad remain. For example, the existence of a triad helps to 
ensure that no existing or potential opponent can envisage a successful 
competition in nuclear arms or a practicable strategy of eliminating 
the U.S. deterrent via offensive operation. These are potentially 
critical contributions to U.S. and allied security. As I stated 
earlier, we must be careful as we consider further reductions in the 
triad force structure so that we don't cut the force too deeply and 
find ourselves in an unintended position of weakness that invites 
challenges and provocations.

    Senator Sessions. I'd just ask one question for our 
experts, briefly, if you would. Can a nation today--let's say a 
closed, or even an open nation today--develop a nuclear weapon 
without us knowing it? I mean, how hard is it for a country to 
develop, secretly, a nuclear weapons program?
    Dr. Gallucci?
    Dr. Gallucci. I think the answer is certainly yes to that 
question, depending on the Nation. If the Nation already has 
fissile-material production facilities--in other words, it's 
separating plutonium, particularly if it's a certain kind of 
reactor that's producing the plutonium, if it has an enrichment 
facility, then the possibility of producing the weapon secretly 
is there. This could be an advanced country, or it could be a 
country that is not so advanced if it has those facilities.
    While I have the floor, Senator, so that I don't have a 
really terrible afternoon, let me say that at no point did I 
wish to convey that our decisions, or your decisions, about 
what we do with our force posture are going to have a 
particularly important effect on decisions that are made in 
Pyongyang or Tehran or these hard cases. But this discussion 
today, this hearing, was really about our broad force posture, 
as I understood it, and, when we're thinking about something 
like that, we have to think that there are 9 nuclear-weapon 
states in the world, the 5 declared and the other 4, and there 
are not 90. But there are 189 countries out there, and we'd 
like to continue to have to worry about what North Korea and 
Iran are doing, and not 40 or 50 other countries. So, I think, 
while the body-posture issue--argument I was making is really, 
you're quite right, irrelevant to the few hard cases who are 
going to make these kinds of regional decisions of their own, 
there are a lot of other countries out there which have decided 
not to acquire nuclear weapons, that could acquire them. I 
associate myself with Dr. Payne's comment here, that our 
ability to extend deterrence is absolutely critical, and that 
has to be on the list of missions that our weapons need to be 
able to accomplish. So, I believe that's true. I don't believe 
we are particularly suspect with respect to extended 
deterrence, but I do believe that he is absolutely correct that 
that is something that we need to sustain.
    Thank you.
    Senator Sessions. Thank you.
    Senator Bill Nelson. Is there unanimity in the panel on the 
proposition that less nations having nuclear weapons is a good 
thing? [Nodding of heads.]
    Okay. Is there unanimity in the panel that less weapons 
possessed by the United States and Russia is a good thing?
    Dr. Drell. To a point.
    Dr. Gallucci. To a point.
    Senator Bill Nelson. To a point.
    Dr. Payne. With conditions, yes.
    Senator Bill Nelson. All right. For the record, state, 
Doctor, what does ``to a point'' mean? Dr. Payne, state what 
``with conditions'' means.
    Dr. Drell. I said ``to a point.'' If I don't know--it 
depends upon the--how big the band of uncertainty is about what 
other countries have. I want to have a deterrent. I want to 
have extended deterrence. I want to have deterrence. It depends 
upon, again, the uncertainties out there. I don't want to be 
the weak one.
    Senator Bill Nelson. Dr. Payne?
    Dr. Payne. I agree, we don't want to give up deterrence, we 
don't want to give up extended deterrence, we don't want to 
give up the assurance that the nuclear weapons provide, or the 
dissuasive effect that nuclear weapon provide. With regard to 
the conditions, I mentioned the--just briefly ago, that one of 
the conditions associated with moving down to variable levels 
of nuclear weapons should very effective defenses. Although the 
NPR called for the United States to move toward very effective 
defenses against--at least against limited threats, I should 
say we're not there yet.
    Senator Bill Nelson. All right. Well, on the flip side of 
this, those other countries are asking the same thing. Do their 
nuclear weapons deter us? I would take it that certainly what 
we've seen in North Korea is that they think that they're going 
to get something from the fact that they have developed nuclear 
weapons. So, do their nuclear weapons deter the U.S.?
    Dr. Gallucci. Senator, from what? The issue with deterrence 
is--one of the issues is what you are hoping to deter. I think 
we could be pretty confident, unless one drew the conclusion 
that there was clearly irrationality and insanity in the 
leadership, we could be pretty confident that we will not be 
attacked--the United States of America will not be attacked by 
North Korea. But there are so many other consequences of the 
North Korean nuclear weapons program which threaten our 
security, and that of our allies, that engaging in a 
negotiation to try to get rid of those weapons is very 
sensible. But the particular concern that they will mate these 
weapons with their extended-range ballistic missile and 
directly attack the United States of America isn't high on my 
list of things to worry about. There are many more things that 
come from this that I'm more concerned about.
    Senator Bill Nelson. That's, of course, what most of us 
feel. I'm trying to look at it from the other side. The idea 
goes to the legitimization of nuclear weapons. When is the idea 
of a nuclear strike not feasible? Is deterring the United 
States a motivator on smaller nations, other than Russia and 
China?
    Dr. Payne. Yes, sir, I believe it is. A motivator for them 
to want nuclear weapons? Is that the question?
    Senator Bill Nelson. Yes.
    Dr. Payne. Yes, sir. I believe that seeking a deterrent 
capability is a motivator for both Iran and North Korea, for 
example.
    Senator Bill Nelson. Okay. Then, that being the case, what 
is the greatest incentive that we can give to them for not 
having nuclear weapons?
    Dr. Payne. The greatest incentive that we could have, sir, 
would be to do away with our conventional forces that are the 
basis for their desire to have a nuclear capability to deter 
us. That would be the greatest thing we could do. I suspect 
that it would be a mistake to do that.
    Dr. Gallucci. Wait. No, wait. But if we can----
    Senator Bill Nelson. Dr. Gallucci?
    Dr. Gallucci.--carry on this conversation. I believe that 
both the North Koreans and the Iranians are interested in 
having a nuclear capability, for a variety of reasons. One of 
the reasons is to be able to deter the United States from using 
its conventional forces, either in the region or directly 
against them. But that's not all. I would put forward the 
proposition that the Iranians are truly interested in a 
hegemonic political position in the Gulf, and the acquisition 
of nuclear weapons would help them achieve that political 
objective, so that they are not simply interested in deterring 
us. That's why I believe they are a harder negotiating target 
than is North Korea. I do believe that North Korea is 
principally interested in regime survival, and is looking to 
deal with us, as a possible advocate of regime change in North 
Korea, and a negotiation that persuaded them that their 
security needs could be met through a relationship with the 
United States might lead them to give up these weapons. Iran, I 
regard as having a slightly more challenging set of objectives.
    Senator Bill Nelson. All right, let's talk about the RRW. 
If we agree that, generally, with the conditions that you've 
placed on it, that it is desirable for us to reduce the number 
of nuclear weapons that we have, along with Russia, since we 
have plenty to blow ourselves up with, is the RRW--number one, 
is it safer? Are its component parts safer, so that it lessens 
the possibility of an accident? Is its reliability sufficient 
so that all of these nuclear weapons that we have in reserve, 
because we're not sure of the reliability, since they're 
degrading over time, that we would be able to significantly 
reduce our arsenal with the new RRW? Let's discuss that.
    Dr. Drell. I believe that point has yet to be made. But let 
me say, my starting position is, our weapons are safe. In 1990, 
I led a study for the House Armed Services Committee, backed by 
the Senate Armed Services Committee, with Johnny Foster and Dr. 
Townes, the inventor of the laser--there was a three-man 
committee, and we came to the conclusion that the weapons to be 
in our enduring stockpile meet all the official safety criteria 
that are in our policy.
    Senator Bill Nelson. All right. I think everybody feels 
that that's the case. Now, are they reliable?
    Dr. Drell. I'm coming. Since the moratorium on testing 
started, in 1992, first by President George H.W. Bush, and then 
continued by President Clinton, we have had a very extensive 
multifaceted stockpile stewardship program that has gone into 
understanding the scientific--underlying processes in our 
weapons. We didn't do that to the full extent during the 
buildup of the first 50 years, because we were always changing 
the weapons, improving them, until we got to a point where the 
weapons really were quite robust. We now understand those 
weapons better, we have done extensive surveillance, extensive 
forensics, pulling them apart year by year, and we have, in my 
mind, increased our confidence in the reliability of the 
stockpile, at least mine, as a scientist who's worked these 
issues, because we understand them better, we know what to look 
for, and we have, in my mind, better confidence that if 
something's going wrong, the bells will ring, and we'll hear 
them. There have been findings--there are always findings when 
you build a weapon, because there are mistakes made in the 
production, there are birth defects that we discover. We've 
found them. I believe it is a fair statement that there is no 
significant aging of the weapons that has been found. I believe 
the stockpile, currently, is safe and reliable, and is not 
aging.
    Now, that doesn't mean one can be complacent. One would 
like to improve them. In particular, in the world of terrorism, 
where a bad guy may get his hands on one of these weapons, if I 
can do anything to give them better use control, meaning that a 
bad guy getting one of my weapons cannot use it against me, I 
want to do that. But I believe firmly, as I said in my 
testimony, and based upon not just opinions, but work, that the 
ability to improve any one of these three categories has to be 
rigorously understood. Can we do it and have greater 
confidence? We have a stockpile which is built on a thousand-
plus tests. To think it's easy to have greater confidence when 
you make some changes in a system like this, without testing, 
that's quite a statement, and I think that has to be--that's 
the statement where I say: I don't know the answer to your 
question, but we'd better find out before we go down the road, 
because clearly if we go down that road and we're building new 
weapons, and we give the impression that it's important for us 
to continue to modernize and improve, that does not, in my 
mind, help our nonproliferation goals. I think they are 
important.
    Senator Bill Nelson. Do either of you know the answer? Is a 
replacement warhead that isn't going to be tested--is that 
reliable? Do either of you have the answer to that?
    Dr. Gallucci. No, Senator, I don't.
    Dr. Payne. No.
    Senator Bill Nelson. So, that's a question we have to 
answer.
    Dr. Drell. I think it has to be answered, and I think 
that's going to be a very important part of the debate here in 
Congress. First of all, it's a very important part of the 
weapons establishment and those of us involved in seeing that 
that question gets the highest attention and that we come back 
to Washington with an answer in which we are confident and has 
a consensus. Because I see no reason not to make the weapons 
safer, if I can with confidence, or more reliable, if I can 
with confidence, or with better use control. I don't see that's 
a vice.
    Senator Bill Nelson. But if it were not reliable and had to 
be tested, the opinion would be you don't go to an RRW. Is 
that----
    Dr. Drell. Unless we found some deficiency from our 
surveillance and life extension program which demands a change. 
That's why I said, don't savage those programs in pushing the 
RRW. Maintain the high quality that they have had for the last 
decade.
    Senator Bill Nelson. Well, until we know whether this whole 
thing is feasible, how much life extension should we go 
through?
    Dr. Drell. We have to--for the weapons that are in the 
stockpile, we have to keep our eyes on the ball ,and we have to 
say that the W-76, the W-88, the W-87, that these weapons, 
which are part of our deterrent, however much we want that 
deterrent to be, they are reliable, period. We don't give up on 
that, in my mind.
    Senator Bill Nelson. In your opinion, if we determine that 
they are reliable with this life extension, then we can reduce 
the existing stockpile.
    Dr. Drell. Absolutely. Absolutely.
    Senator Bill Nelson. Any different opinions there? [No 
response.]
    Since you all are the experts, is there any kind of rush 
going on to complete this feasibility study on the RRW?
    Dr. Drell. I--well, I'll stop talking in a minute, but let 
me just say--I don't see the signal yet that appears that 
there's an aging signal that's of concern. In fact, it was 
widely reported that the weapons labs reassessed the lifetime 
of the plutonium pits, and the Jason Group did its own 
independent work, which I was involved with. We now know that 
that concern about plutonium aging, because of the radioactive 
environment and its impact on the pits, is not a problem that 
can't be handled. It's--the lifetime now is of the order of a 
century. It was thought to be less so, I don't see any aging 
problem, and we are doing--we are--we're doing things--have 
been, for 15 years, in making the weapons more robust as we've 
gone along.
    Dr. Payne. I can mention, in that regard, Senator, that my 
understanding is that the last generation of designers and 
engineers with direct test experience will largely be 
retiring----
    Dr. Drell. Yes.
    Dr. Payne. --within the next 5 years. So, I think there is 
a near-term opportunity, perhaps a fleeting opportunity, to 
transfer the knowledge from these experienced scientists with 
direct test knowledge and experience to the next generation of 
designers. I think that could be important.
    Dr. Drell. Let--if I may comment on that, because----
    Senator Bill Nelson. Certainly.
    Dr. Drell.--I think it's very important that we maintain 
experts who know what they're doing in the labs. I think that 
if you look at the money that's been invested in the program 
over the last 15 years, with new instruments for much more 
detailed surveillance and analysis, simulations, the best 
computers, the possibility of doing underground subcritical 
tests in Nevada, where you don't generate a chain reaction, but 
in which you study the effects of explosives on plutonium 
prepared in different ways, these are all part of a very 
multifaceted program that is challenging to the scientists. 
There are--there is something visceral about saying, ``I'm 
going to blow out the side of a mountain.'' We all know that. 
But I think, in terms of scientists learning the trade, the 
ability to do the detailed new codes, high-fidelity, three-
dimensional explosion codes, with the world's best 
supercomputers, now having the National Ignition Facility--it's 
going to give us data, where these codes can be tested in areas 
they've never been tested before, much more like bomb 
material--there is a good program, and I think attention is 
being paid to get very good scientists, and mentor them. I 
don't think that is a detonation of a new bomb is necessary, 
but it is necessary to have the management of the labs pay good 
attention to the problem that Dr. Payne raises. It is a 
concern. I think it's being addressed properly.
    Senator Bill Nelson. Let's talk about numbers of weapons. 
Should the numbers in the arsenal be determined by specific 
targets?
    Dr. Payne. I don't believe so, sir. There was the Cold War 
approach to looking at the numbers required typically had to do 
with the number of targets in the Soviet Union. What that meant 
was that we defined ``deterrence'' in a numbers game. We also 
then defined our strategic requirements from that same numbers 
game. But, as I mentioned earlier, the relationship of numbers 
to deterrence, and deterrence effect, is something now that's 
very uncertain. The role of our strategic nuclear forces is 
well beyond deterrence. So, if we want to think about the 
numbers in general, if there's a--if there were a diagram to 
how we think about numbers, it wouldn't have so much to do with 
the number of targets, per se--that's, in a sense, the way we 
looked at it in the Cold War--but it would be the numbers that 
we think are important for dissuasion, for assurance, 
particularly extended nuclear deterrence, and the numbers that 
we think, then, are also associated with deterrence, as well as 
we can know them. So, it really isn't any longer just a numbers 
game. We treated it that way during the Cold War, and, 
fortunately, deterrence didn't fail. But we need to think about 
it much more broadly now.
    Senator Bill Nelson. Go ahead, Dr. Gallucci.
    Dr. Gallucci. I've never built a SIOP, so I don't have any 
hands-on experience in this. But I would be surprised if 
numbers were not still very important--first, for the mission 
which I think is the most critical, which is the deterrent 
mission. I'm really unclear and unsteady and concerned about 
Dr. Payne's reference to the ``other missions.'' That's what I 
tried to address in my remarks earlier. I'm comfortable with an 
absolute insistence that whatever capability exists, 
independent of Russian intentions, but whatever capability 
exists in Russia by the usual standards, that we do the 
counting and we figure that we have a secure, survivable, 
second-strike deterrent. So, I'm still up for those numbers.
    Additional missions for these nuclear weapons, I think my 
view is generally that they are the lesser and included cases--
that we have small-yield weapons to accomplish some other 
missions, which I think are really, for me at least, very 
limited. I am not interested in using nuclear weapons in a 
first-strike mode to go after some hard targets. I do believe 
that the deterrent mission after an attack, even by a 
terrorist, where you wanted to gain the deterrent advantage 
against that country that might have transferred the material, 
is sort of a new mission. But my thinking still is that, 
fundamentally, we are looking at a secure deterrent, and one 
that is credible for the purpose of extended deterrence. I 
think I'm still there.
    Dr. Drell. Just very briefly, I think whatever deterrent 
value our weapons have against the terrorists, if they see us 
with 20 weapons, I don't know if they'll be deterred. But I 
don't think the difference between 20 and 500 matters that much 
to the terrorists. To other states who have--want to survive, I 
look at what 20 weapons would do to 20 cities in this country, 
and I feel very comfortable that if we had 500, we'd have one 
helluva deterrent. So, there is a point where numbers get 
important, but I don't think we're near that yet, the large----
    Senator Bill Nelson. All right, you're saying 500 instead 
of 5,000.
    Dr. Drell. That's right.
    Senator Bill Nelson. Right.
    Dr. Payne. Sir, could I comment? Because I don't want to be 
misinterpreted here. First, I don't think that numbers are 
unimportant. I think the numbers can be important. The point I 
was trying to make is that they don't tell the whole story. The 
additional missions that I was referring to have nothing to do 
with the tactical, or otherwise, use of nuclear weapons, per 
se. What I was talking about are the broad defensive goals of 
dissuasion and assurance, assuring our allies that--of our 
commitment, so they aren't interested in pursuing nuclear 
weapons, themselves, for example. So, when you look at the type 
of methodology that we want to pursue when we're thinking about 
numbers, it shouldn't just be tied back to deterrence and 
specific target numbers. That's what I meant. It needs to be 
broadened out, looking at all of these functions that nuclear 
weapons can help provide--and, again, not for a moment talking 
about pre-emption or tactical use of nuclear weapons. That's 
not what I was referring to.
    Senator Bill Nelson. What about the concept of the Triad, 
as we have used it--submarines, ICBMs and airplanes--as a 
deterrent; multiple means of delivering nuclear weapons?
    Dr. Drell. I believe in the value of diversity. Absolutely, 
I wouldn't give it up.
    Dr. Gallucci. I agree.
    Dr. Payne. Absolutely.
    Senator Bill Nelson. Well, let's assume that we proceeded 
down this road that we were going to have a SLBM that would be 
non-nuclear. Should all of the submarine-launched ballistic 
missiles be non-nuclear?
    Dr. Gallucci. Since my principal concern is of the 
ambiguity of a launch from a strategic platform, like a 
Trident, there are various things that we could do to try to 
reduce that concern, and I'd start by designating a particular 
submarine as conventional, and not mixing. I mean, that's where 
I'd start. I don't know that that would do the trick, but 
that's where I'd start.
    Dr. Drell. I have no higher confidence in any part of our 
defense than I do in the Navy's Trident program. That naval 
nuclear program has been the outstanding program through its 
history. But I feel a lot better with just no mix on the same 
boat, nevertheless.
    Dr. Payne. Yes, I certainly wouldn't convert the entire 
SLBM force to conventional weapons.
    Senator Bill Nelson. Thank you all very much. It's been an 
engaging discussion, and thank you for lending your expertise 
to us.
    Again, Dr. Drell, thank you for coming all the way from 
California.
    Dr. Drell. Thank you for the opportunity, Senator.
    Senator Bill Nelson. May I ask one further question? Would 
you all be willing to accept some additional questions that 
would be answered for the record?
    Dr. Payne. Sure.
    Dr. Gallucci. Yes, sir.
    Dr. Drell. Sure.
    Senator Bill Nelson. Okay. Thank you very much. The hearing 
is adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Bill Nelson

                               DETERRENCE

    1. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
during the Cold War, both the United States and Soviet Union had 
nuclear arsenals that ranged in the tens of thousands of nuclear 
weapons. The large numbers were predicated on the mutual ability to 
ride out a massive attack and mount a massive attack or counter 
attacks. Multiple warheads were needed for each of the thousands of 
targets. Mutually assured destruction (MAD) kept the two of us from 
entering in a war with one another. Thankfully, MAD is gone but 
deterrence theory remains. Does the idea of deterrence still drive the 
U.S. requirement for nuclear weapons?
    Dr. Gallucci. The principal requirement for U.S. nuclear weapons 
remains deterrence. Although the political context has changed over the 
last 20 years, particularly with respect to our assessment of the 
intentions of the leadership in Moscow and Beijing, we must be certain 
that we have the nuclear forces to deter a nuclear attack from Russia 
or China. If we can do that, all other plausible missions for our 
forces will fall into the category of ``lesser included cases.''
    Dr. Drell. The answer seems to be yes. The only rationale I know 
for our retaining between 1,700 and 2,200 deployed strategic forces, 
according to SORT, or the Treaty of Moscow negotiated in 2002, plus 
several thousand more in Reserve, is to deter an equal number still 
retained by Russia. They also may be viewed as a deterrent against the 
use of nuclear weapons by the other nuclear powers not closely allied 
to us, namely China and perhaps Pakistan and India; and soon, if not 
already, North Korea. In these cases the numbers could be an order of 
magnitude smaller, given their own limited forces.
    Dr. Payne. The four defense goals that contribute to U.S. strategic 
force requirements are deterrence, assurance, dissuasion, and defeat.

    2. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
whom are we deterring with nuclear weapons, countries or terrorists?
    Dr. Gallucci. I do not see a way that we can directly deter 
terrorists from attacking the U.S. by threatening a nuclear strike. 
However, we may be able to deter a nation from transferring a nuclear 
weapon or fissile material to a terrorist group by threatening to treat 
that nation as the attacker if a terrorist uses a weapon or material 
from that nation in an attack on us.
    Dr. Drell. It is difficult to think that terrorists are deferrable 
by nuclear weapons. They operate with standards that differ from that 
of the civilized world in general, and are even suicidal in many 
actions. Also the number of targets they present is so small that 
anything beyond a force of only a few nuclear weapons is irrelevant. So 
I would suggest that it is nations, and in particular the ones 
mentioned in question 1, that one may think we are deterring.
    Dr. Payne. We hope to deter the leaderships of hostile countries 
and terrorist organizations.

    3. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
what states pose serious threats of a nuclear attack and can they be 
deterred?
    Dr. Gallucci. I do not think any nation currently poses a serious 
threat of a nuclear attack on the United States. Both Russia and China 
have the capability, but neither has the intention. Intentions, though, 
can change more quickly than capabilities.
    Dr. Drell. They are Russia, and China which presently has only a 
handful or two of long range nuclear weapons that can reach U.S. 
territory, but is building more. I find it difficult to see a role for 
our nuclear forces in deterring India or Pakistan. One can argue that 
perhaps, if it were not for our nuclear forces, North Korea might view 
taking aggressive military actions without fear of nuclear reprisal, 
despite our overwhelming conventional strength. The same goes for Iran.
    Dr. Payne. Countries with self-expressed hostility toward the 
United States, a plausible flashpoint, and nuclear capabilities include 
most prominently North Korea and China. The potential for an escalating 
crisis with North Korea or China appears now to be most plausible.

    4. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, is 
the idea of deterring a specific state or entity valid or should we 
look at a nuclear capability to deter an unknown actor?
    Dr. Gallucci. We should first be certain of our ability to deter 
Russia and China--specifically taking account of the size and character 
of their forces. If we can do that, we will be able to deter any 
conceivable rising power in the Middle East or Asia.
    Dr. Drell. I think the idea of deterring a nuclear power has merit 
still in today's world, but for an unknown actor I believe strong 
conventional forces are more relevant.
    Dr. Payne. The goal of attempting to deter specific states or 
entities is valid and necessary. We also must recognize that 
international relations are highly dynamic and we may in the future 
need to deter opponents not currently identified as such.

    5. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
nuclear deterrence must be part of a much larger package of 
conventional military capabilities, diplomatic initiatives, economic 
and trade relationships, and many other tools to ensure security. Is it 
possible to reduce the role of nuclear weapons in deterrence and 
security?
    Dr. Gallucci. We have been reducing the role of nuclear weapons in 
security strategy by responding to the changing political context and 
reducing the size of nuclear forces. In theory, we could eliminate 
nuclear weapons, if others did likewise. In practice, we can and should 
continue to reduce the number of nuclear weapons we deploy as Russia 
does the same. The less we depend upon nuclear weapons to achieve our 
security objectives, the more credible and effective will be our 
efforts to limit the acquisition of nuclear weapons by others.
    Dr. Drell. I think it is in our interest to reduce the role of 
nuclear weapons in deterrence and security. Diplomatic incentives and 
our overwhelming conventional strength remain quite relevant, and our 
non-nuclear military forces should remain strong and capable of meeting 
our foreign policy and national security goals. Given the danger of the 
spread of nuclear weapons and the spread of technology making more 
countries capable of acquiring that knowledge and entering the nuclear 
club, we should be working on trying to escape the nuclear deterrence 
trap. A more constructive way to view the problem would be for the 
United States to work to rekindle the vision of the 1986 Reykjavik 
Summit, as expressed by President Ronald Reagan and General Secretary 
Mikhail Gorbachev, and take steps toward working to rid the world of 
nuclear weapons. These are outlined in my testimony.
    Dr. Payne. The deterrence role for U.S. nuclear weapons is 
determined in large part by the context of a crisis, the character and 
goals of opponents, and U.S. deterrence goals. Each of these factors is 
likely to change depending on the context and opponent. Consequently, 
the value of nuclear weapons for deterrence is not static or entirely 
predictable. In some past cases, U.S. nuclear weapons were essential 
for deterrence, it would be optimistic to believe that they will not 
continue to be so in some future occasions.

                        CONVENTIONAL DETERRENCE

    6. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, can 
the United States deter others with conventional weapons?
    Dr. Gallucci. Deterrence means dissuading others from doing 
something they would otherwise do by threatening unacceptable 
consequences if they do it. We can never be sure when it works--only 
when it fails.
    I think U.S. unconventional forces often deter adversaries from 
action. We have used our conventional forces many times in past 
decades, and have thus demonstrated our credibility to act when our 
interests are threatened.
    Dr. Drell. The answer I believe is yes, except perhaps for Russia 
and China in today's world.
    Dr. Payne. In some plausible cases, non-nuclear deterrence threats 
are likely to be adequate and more credible than nuclear threats. In 
other plausible cases, U.S. nuclear capabilities are likely to he 
necessary for deterrence.

    7. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, are 
countries deterred with conventional weapons?
    Dr. Gallucci. Countries may be deterred by threat of a conventional 
strike, depending on the stakes and the credibility of the threat.
    Dr. Drell. Except for Russia and China the answer I believe is yes. 
I believe terrorists can be deterred with conventional weapons when 
they understand that the United States is willing to use such weapons 
to prevent them from carrying out terrorist or aggressive actions 
against our allies and our interests. They must know that the use of 
conventional force to protect our interests and our security is a 
policy we are committed to and will enforce. In contrast, for nuclear 
weapons the highest goal is to prevent their use.
    Dr. Payne. See above.

    8. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, are 
terrorists, even though viewed to be nondeterrable, ever deterred with 
conventional weapons?
    Dr. Gallucci. It is not unreasonable to think that terrorists will 
limit their operations out of a concern that they might suffer an 
effective conventional counterstrike.
    Dr. Drell. Yes, if they know we will use them to prevent them from 
achieving their goals; and they fear our ability to destroy them if 
they try.
    Dr. Payne. Over the past 200 years there have been numerous cases 
in which terrorists have been deterred with conventional weapons. In 
other eases, terrorists have not been directly deferrable, but they 
have been deterred indirectly via pressure on their sponsors. There is 
at least one reported case of this indirect deterrence of terrorists 
via nuclear threats.

                          CONVENTIONAL TRIDENT

    9. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, the 
administration has proposed development of a conventional Trident 
missile to support a notion of prompt global strike--the ability to 
strike anywhere on the earth in less than 60 minutes. Assuming that the 
issues associated with nuclear ambiguity could be resolved, in other 
words not mistaking a conventional Trident for a nuclear Trident, does 
this type of capability deter a state or a non-state actor?
    Dr. Gallucci. On the assumption of the elimination of nuclear 
ambiguity, this type of capability could deter a state or non-state 
actor from some activities.
    Dr. Drell. I believe prompt global strike has a potential role 
against a target that can be located very accurately within the small 
kill radius of a conventional explosion, even if it is mobile. That 
capability may prevent or deter a hostile act of great consequence. 
This is likely to be most effective against a terrorist within a state 
that does not have full control over its territory, but also against a 
rogue state willing to take aggressive actions against our interests 
and to suffer the consequences.
    Dr. Payne. It is literally impossible for anyone to predict with 
precision what will or will not deter an unspecified opponent, in an 
unspecified context, over unspecified stakes. There certainly are 
plausible scenarios in which conventional Trident could contribute to 
deterrence.

    10. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
would any Prompt Global Strike capability have any deterrent effect?
    Dr. Gallucci. See response to question 9.
    Dr. Drell. It is not inconceivable that it would complicate a 
possible action if the perpetrator felt that self survival is not 
assured. To that extent it would have a deterrent effect, but I think 
the overall deterrent effect would not be very large.
    Dr. Payne. Please see the response to question 9 above.

                          TAILORED DETERRENCE

    11. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, a 
new concept to come out of the National Security Strategy and the 2001 
Nuclear Posture Review is ``tailored deterrence.'' DOD joint operating 
concept documents define tailored deterrence as the development of 
strategies, plans, and operations that are tailored to the perception, 
values, and interests of specific adversaries. Do nuclear weapons play 
a role in tailored deterrence?
    Dr. Gallucci. If the concept would require re-emphasizing nuclear 
weapons by producing special effects weapons, the benefit of being 
``tailored'' would not outweigh the costs of asserting the utility of 
nuclear weapons for purposes other than deterrence.
    Dr. Drell. I believe deterrence must be restricted to preventing 
the use of nuclear weapons against us and our interests. The form of a 
threat that we want to deter cannot be accurately predicted, and 
therefore a certain degree of flexibility is needed. Among other things 
the deterrent must be capable of a wide range of strike intensities and 
locations. That is what ``tailored deterrence'' means to me.
    Dr. Payne. Certainly. For opponents who are highly cost- and risk-
tolerant, U.S. nuclear deterrence may be a necessary part of defining 
an approach to deterrence that has a reasonable chance of ``working'' 
as we would hope. This conclusion is not simply speculation; it is 
supported by historical evidence.


                               DISSUASION

    12. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
the December 2001 Nuclear Posture talks about nuclear dissuasion--what 
is the difference between deterrence and dissuasion?
    Dr. Gallucci. I have no idea.
    Dr. Drell. Dissuasion means to discourage planning for potential 
actions not in our interest, such as an opponent trying to build up 
military forces and strength equal to, or greater than, our own. This 
can be done diplomatically or by undertaking our own build-up to a 
point that it sets a level very difficult to match. Deterrence I view 
as preventing an attack, particularly by nuclear weapons if we are 
talking nuclear deterrence, by making clear that the attack cannot 
achieve its goal and that damage caused by our retaliation will make it 
not in the interest of the would-be attacker to proceed. As quoted in 
the Bush administration's National Security Strategy: ``[o]ur forces 
will be strong enough to dissuade potential adversaries from pursuing a 
military build-up in hopes of surpassing, or equaling, the power of the 
United States.''
    Dr. Payne. The goal of dissuasion is different than deterrence. 
Dissuasion attempts to prevent crises and challenges before they emerge 
by discouraging opponents over the long-term from choosing broad 
courses of weapon acquisition and foreign policy that might put them in 
conflict with U.S. interests. Deterrence typically involves the 
prevention of more specific actions over a shorter timeline.

    13. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, is 
dissuasion a valid theory?
    Dr. Gallucci. See response to question 12.
    Dr. Drell. Dissuasion is a policy goal to be achieved through 
diplomacy, backed by strength. It may succeed or, oppositely, stimulate 
an arms race. I have not seen any convincing implementation of a policy 
of nuclear dissuasion that was achieved by a nuclear build-up.
    Dr. Payne. Yes. in principle, it precedes the goal of deterrence on 
a timeline and. if successful, eases the challenges to deterrence.

                            OTHER COUNTRIES

    14. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
what is the role of Russia in United States nuclear policy?
    Dr. Gallucci. Russian nuclear forces should still be the basis for 
decisions about the size and character of our strategic nuclear forces.
    Dr. Drell. On December 13, 2001, President George W. Bush stated 
``the greatest threats to both our countries come not from each other, 
or from other big powers in the world, but from terrorists who strike 
without warning, or rogue states who seeks weapons of mass 
destruction.'' The joint statement of a new relationship between the 
United States and Russia signed by Presidents Bush and Putin on 
November 13, 2001 stated that `The United States and Russia have 
overcome the legacy of the Cold War. Neither country regards the other 
as enemy or threat.'' He went on to call for ``the creation of a new 
strategic framework to ensure the mutual security of the United States 
and Russia and the world community.'' In the note announcing U.S. 
withdrawal from the ABM Treaty on December 13, 2001, the President said 
``We have entered into a new strategic relation with Russia that is 
cooperative rather than adversarial.'' These are examples of a number 
of statements during 2001 and 2002 in which the United States and 
Russia marked the formal end of the era of mutual nuclear deterrence 
between the two countries. Clearly that has not yet been fully 
implemented as a policy.
    Dr. Payne. The United States must be in a position to deter Russia 
if it chooses a future course of hostility and competition. Whether 
Russia will choose this course or a more cooperative, benign future is 
an open question. The United States must encourage the former and be 
prepared for the latter. Pan of that preparation is maintaining a 
flexible nuclear base that can adjust as necessary to meet future 
threat developments.

    15. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
what is the role of China?
    Dr. Gallucci. We should be certain that the nuclear forces needed 
to deter Russia will also deter China.
    Dr. Drell. It would appear that deterrence remains a basis of U.S./
China policy although the disparity in numbers of their weapons is very 
large. It is generally viewed that our nuclear weapons are a deterrent 
against a Chinese invasion of Taiwan.
    Dr. Payne. It is important that the United States be able to deter 
the expressed Chinese willingness to use force, e.g.. nuclear weapons 
in a crisis over Taiwan, to assure U.S. Asian allies who feel 
vulnerable to Chinese nuclear threats, including Japan, and to dissuade 
China from choosing the course of nuclear arms competition. U.S. 
nuclear capabilities and nuclear infrastructure may be critical to each 
of these deterrence and dissuasion goals.

    16. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
what are the roles of France and Great Britain?
    Dr. Gallucci. I do no think that French and British nuclear forces 
remain important to their defense, to ours or to the NATO Alliance.
    Dr. Drell. I believe the roles of France and Great Britain are to 
maintain a seat at the table of the nuclear powers with their nuclear 
forces, and to provide an independent NATO deterrent against invasion 
from the east.
    Dr. Payne. The French and British independent nuclear deterrents 
arc in the process of being modernized and upgraded and may contribute 
to the U.S. goals of deterrence, assurance and dissuasion.

    17. Senator Bill Nelson. Dr. Gallucci, Dr. Drell and Dr. Payne, 
what are the roles of India, Pakistan, and Israel as non-parties to the 
Nonproliferation Treaty (NPT) or any future states that might pull out 
of the NPT?
    Dr. Gallucci. India, Pakistan, and Israel had been the only 
countries with nuclear weapons, apart form the original five countries 
recognized in the NPT. North Korea claims to have withdrawn from the 
Treaty, but plausibly will rejoin if the agreement of 13 February 2007 
holds. India will receive special status and legitimatizing if the 
administration's proposed deal is accepted by New Delhi.
    The India deal could turn out to be the biggest foreign policy 
mistake of the Bush administration. Intended to recognize India's 
strategic importance to the United States, the deal could end up 
legitimatizing nuclear weapon status for former NPT parties who are 
otherwise generally responsible countries. Candidates are: Japan, South 
Korea, Argentina, Brazil, and Saudi Arabia; others would follow.
    Dr. Drell. India, Pakistan, and Israel retain nuclear weapons 
because of regional instabilities which affect them directly. It is 
presumed they will stay that way so long as the mutual hostilities 
between India and Pakistan, and Israel and the Arab world, remain high 
on the security agenda of these countries.
    Dr. Payne. These countries illustrate that the international 
nuclear nonproliferation regime cannot prevent the acquisition of 
nuclear weapons by leadership that believe their countries to be at 
risk, and who believe that nuclear weapons are necessary to address 
that risk and to realize their national aspirations.

    18. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
what about India and Pakistan in their role as regional nuclear weapons 
states?
    Dr. Gallucci. If a nuclear weapon is going to be used in a conflict 
between two states, it will be used by India and/or Pakistan. As they 
build their arsenals--now with an American blessing--they create the 
possibility of a truly horrendous catastrophe.
    Dr. Drell. See response to question 17.
    Dr. Payne. See response to question 17.

    19. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
what about North Korea, which might have a few weapons, 8-10 according 
to some estimates, but which may be on the brink of giving up its 
program?
    Dr. Gallucci. North Korea's nuclear program if unchecked would 
provoke Japan and South Korea to nuclear weapons acquisition. Even more 
worrisome would be the sale of fissile material to a terrorist group by 
this resource starved country.
    Dr. Drell. It would seem to be North Korea's deterrent against 
perceived threats of U.S. aggressive action, including regime change; 
also a bargaining chip for economic aid and cooperation. The future of 
North Korea's program is critical because if North Korea is able to 
establish that it has a deliverable nuclear threat, which it has not 
yet done, it will have a serious implication for a broader 
proliferation of nuclear weapons in Northeast Asia. It would 
undoubtedly encourage Japan, South Korea, and perhaps even Taiwan to go 
nuclear. Such changes certainly would drive up the level of nuclear 
armaments in China by a big amount. The ongoing 6 power negotiations 
arc of utmost importance in an effort to prevent that from happening 
and to protect the nonproliferation regime in that part of the world.
    Dr. Payne. In light of North Korean nuclear capabilities, it is 
critical that the United States possess sufficient nuclear forces to 
extend nuclear deterrence coverage, i.e., the ``nuclear umbrella'' to 
allies in the region, e.g., South Korea and Japan. In the absence of 
credible U.S. nuclear assurance for Japan, there will be mounting 
pressure on Tokyo to consider becoming a nuclear state itself.

    20. Senator Bill Nelson. Dr. Gallucci, Dr. Drell and Dr. Payne, 
what about Iran, which is enriching uranium at laboratory scale 
currently, claims to want nuclear technology for civilian purposes 
only, but continues to defy the International Atomic Energy Agency?
    Dr. Gallucci. A full court diplomatic press, emphasizing carrots, 
should be made to persuade Iran to suspend construction of its 
enrichment facility. Sticks, in the form of sanctions, will have to be 
developed with Russia aboard if they are to have any hope of working. 
Ultimately, if Iran is found to be moving to enrich uranium to high 
levels, and if the character of the regime has not changed, the use of 
military force in the form of air strikes will have to be considered.
    Dr. Drell. Iran poses a very serious threat. Its program for 
enriching uranium in order to fuel reactors for civilian power, which 
is its stated goal, will make it into a latent nuclear weapons country. 
The technology for the one puts a nation well on the road to 
accomplishing the second of those two goals. A nuclear Iran would 
create even graver instabilities, not only vis-a-vis Israel, but with 
the rest of the Arab world, and would most likely stimulate 
proliferation among many nations in the Mideast. It is the gravest 
threat that I know at the moment to the Nonproliferation Treaty and the 
nonproliferation regime.
    Dr. Payne. At this point, Iran appears determined to complete its 
longstanding efforts to develop nuclear weapons. This will increase the 
pressure for broadened extended U.S. nuclear deterrence to friends and 
allies in the region who may otherwise seek their own nuclear 
deterrent.

    21. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
what about allies who don't have nuclear weapons, such as Japan, and 
who have not developed nuclear weapons, because the U.S. deterrence 
umbrella covered them?
    Dr. Gallucci. I do not think the credibility of our nuclear 
umbrella, the extended deterrent threat, is serious questioned.
    Dr. Drell.. My main concern was expressed in the answer to question 
19. Japan is a latent nuclear power that could become an explicit one 
in a very short order if they doubted the U.S. deterrence umbrella or 
if North Korea displayed an effective nuclear capability. This is an 
example of the kind of concern that motivates the thinking expressed in 
my testimony calling on the United States to try to rekindle a vision 
of a nuclear free world, and to implement the set of steps spelled out 
in my testimony toward achieving the conditions to make that possible. 
That will be the only long-term resolution to this dilemma.
    Dr. Payne. It is critical that key allies such as Japan continue to 
have confidence in the U.S. extended nuclear deterrent. If they loose 
that confidence, according to their own statements they may feel 
compelled to seek their own nuclear capabilities. This could set off a 
``cascade effect'' of nuclear proliferation globally, The U.S. extended 
nuclear deterrent is our single most important nonproliferation tool.

    22. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
what about countries who might desire nuclear weapons but don't have a 
nuclear weapons program?
    Dr. Gallucci. There remains great virtue in limiting the 
availability of facilities that produce fissile material, reprocessing 
plants and enrichment facilities.
    Dr. Drell. There are some 40 nuclear capable countries, that is 
countries with reactors for civilian purposes. With the spread of 
technology and the growing reluctance to accept a two-tiered world in 
which there are discriminatory differences between nuclear and 
nonnuclear states, I fear many of these countries will seek to develop 
indigenous nuclear programs unless we and other nuclear powers 
demonstrate our commitment to the goals stated in the Nonproliferation 
Treaty. This calls for reducing reliance on nuclear weapons, working 
toward ratifying a Comprehensive Test Ban Treaty, and eventually toward 
elimination of the weapons. I think that now becomes an urgent and 
serious goal for U.S. foreign policy and diplomacy.
    Dr. Payne. One of our goals is to assure those non-nuclear allies 
and friends oft he U.S. commitment to their security, and thereby to 
contribute to their continuing choice to remain non-nuclear. Another 
goal is to dissuade those who are hostile from choosing to develop or 
acquire nuclear weapons. We know that credible U.S. strategic nuclear 
capabilities contribute to the assurance goal: they probably also 
contribute to dissuasion as well.

                               TERRORISTS

    23. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
conventional wisdom is that nuclear weapons don't deter terrorists. Do 
you agree?
    Dr. Gallucci. See response to question 2.
    Dr. Drell. I believe that nuclear weapons in large numbers have 
nothing to do with deterring terrorists. The existence of a small 
number may make them think harder about taking aggressive hostile 
actions, but their behavior so far pretty much indicates to me that 
terrorists are not deterred by nuclear weapons. They are bent on 
suicidal actions and willing to take actions that defy the norms of 
civilized behavior as we know them.
    Dr. Payne. No. Nuclear weapons may contribute to the deterrence of 
terrorist organizations indirectly through their state sponsors. There 
is some pertinent historical evidence demonstrating precisely this form 
of indirect deterrence.

    24. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
are countries who might either supply a terrorist with nuclear 
materials deterred from providing such materials by U.S. nuclear 
weapons?
    Dr. Gallucci. See response to question 2.
    Dr. Drell. I see no clear evidence of this. However diplomacy can 
be valuable in providing incentives for restraints against such 
actions. I think the seriousness of our diplomatic efforts to address 
terrorism and at the same time reduce our reliance on nuclear weapons 
will be an effective approach.
    Dr. Payne. I believe U.S. nuclear capabilities are critical to the 
deterrence of North Korea, which may be such a state.

                        A DETERRED UNITED STATES

    25. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, do 
nuclear weapons deter the United States? If so, under what 
circumstances?
    Dr. Gallucci. One could imagine the United States deciding against 
the invasion of a country possessing nuclear weapons.
    Dr. Drell. I recognize that nuclear weapons played a big role in 
deterring potential U.S. actions during the Cold War. At present I can 
speculate that measures the U.S. might initiate against countries, such 
as regime change or use of preventive offensive military force, might 
not be considered against countries who have nuclear weapons, even in 
small numbers, that could cause harm to us. This is what makes it 
urgent for the United States to make clear that our policy and 
potential uses of force are such as not to give them cause to feel the 
need to deter us by getting nuclear weapons.
    Dr. Payne. The United Stales is susceptible to both nuclear and 
non-nuclear deterrence threats. The complete vulnerability of the U.S. 
civilian population to attack contributes to this susceptibility.

    26. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, do 
United States nuclear weapons or policy drive others to attain nuclear 
weapons or impact decisions about the number of nuclear weapons they 
have? If yes, what impact does or should this phenomenon have on U.S. 
nuclear policy?
    Dr. Gallucci. Clearly the Russians are sensitive to U.S. nuclear 
weapons decisions, and we ought to take account of their possible 
responses when we make such decisions. Over the long-term, if we 
emphasize the utility of nuclear weapons for our security, other states 
are more likely to consider such weapons for their security. That is 
one reason why we should try, with the Russians, to reduce the size of 
nuclear forces and avoid deploying new nuclear systems.
    Dr. Drell. I think a U.S. commitment to honor the provisions of the 
Nonproliferation Treaty as mentioned earlier and to reduce its 
discriminatory features by reducing our nuclear arsenal, and its 
relevance in our policies, will contribute to reducing interests in 
other countries becoming nuclear. It is difficult to preach the virtues 
of a nonproliferation regime and of staying nonnuclear if we ourselves 
continue improving our nuclear arsenal and retaining large numbers. 
That is why, how we limit and justify our Reliable Replacement Warhead 
(RRW) program is so important, as I have testified.
    Dr. Payne. In many cases, the number and type of U.S. nuclear 
weapons and U.S. nuclear force policy will have no impact on decisions 
to acquire nuclear weapons. The exceptions to this rule of thumb are 
those countries that have been under the U.S. ``nuclear umbrella.'' If 
that umbrella becomes incredible, they will feel increasing pressure to 
acquire their own nuclear capabilities.

                       HOW MANY NUCLEAR WARHEADS

    27. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, we 
have talked about deterrence and that nuclear weapons play a role in 
deterrence, how effective a deterrent against what types of actors will 
continue to be a point of debate, but now let's talk about how many we 
need. How many total weapons do we need, how many deployed, by when and 
for how long?
    Dr. Gallucci. I addressed numbers in my prepared statement, but I 
am generally attracted to Dr. Drell's assessment.
    Dr. Drell. Responses to these two questions are contained in my 
study with former Ambassador James Goodby entitled ``What Are Nuclear 
Weapons For?--Recommendations for Restructuring U.S. Strategic Nuclear 
Forces,'' published in April 2005 by the Arms Control Association. This 
report has been submitted for inclusion in the record of these 
hearings. I quote several relevant paragraphs from it: ``First, as to 
the number of potential targets, we assume that Russian nuclear forces 
will decrease in numbers comparable to what we are proposing for the 
U.S. force. For reasons having as much to do with historical and 
political baggage as with military requirements, this assumption will 
be a major determinant of the size of the U.S. operationally-deployed 
force, as it appears to be today. . . .''
    ``We estimate that a U.S. strategic force of some 500 
operationally-deployed warheads would be more than adequate for 
deterrence. Borrowing the notion of the Nuclear Posture Review, this 
force level would be enough to provide a degree of flexibility in a 
fluid security environment. This number is large enough to deal with 
the targets described generically in the Nuclear Posture Review as 
instruments of political control and military power . . . leadership 
and military capabilities, particularly weapons of mass destruction, 
military command facilities and other centers of control and 
infrastructure that support military forces.' We estimate these 
military targets, under the conditions we postulate, to number between 
200 and 300, and we have sized the operationally-deployed force of 
strategic warheads at a larger number of 500 for reasons of operational 
conservatism. The excess allows for force readiness concerns, multiple 
targeting where needed, and the possibility of very sudden and 
unexpected surprises from Russia, for example, a breakdown in its 
military command and control caused by technical failures or a takeover 
by renegades. As Russia and the United States move farther away from 
the nuclear deterrent trap in which they are still ensnared, the sizing 
of their stockpiles would depend on other concerns and could be further 
reduced. The 500 operationally-deployed warheads would be augmented by 
those from the Responsive Force, which would be configured in two 
parts, the first able to respond to a rapidly building crisis--a Ready 
Responsive Force--and a second able to respond to strategic warning 
signals on a timescale of a year or more--a Strategic Responsive Force. 
This use of the Responsive Force underscores the need for sustaining an 
infrastructure for supporting it as well as the need to provide this 
force with appropriate hardening and concealment. As we look ahead a 
few years into the future, the total Responsive Force should have 400-
500 warheads, a number comparable to the operationally-deployed one. 
This number would be adequate to target roughly 200 additional Russian 
sites, for example, those affecting industrial recovery--the major 
nodes in the electric power grid and air, ground, and rail 
transportation systems, as well as major industrial sites. These 
targets and the forces to attack them may be viewed, we hope, as only 
temporary remnants of the Cold War policy of assured destruction that 
may be discarded before long in the dustbin of history. In time, 
nuclear deterrence might be maintained entirely with a Responsive Force 
without an operationally-deployed force.''. . .
    ``Potential Chinese targets are likely to cover the same generic 
list as for Russia, cited above, including their strategic strike 
forces, command and control centers, major military bases, and ports in 
the vicinity of Taiwan. With China's long-range nuclear forces 
remaining at anything like their present levels, the target list would 
be considerably smaller than the 200-300 estimated for Russia. This 
list would not generate U.S. force requirements in addition to the 
numbers we have proposed for hypothetical emergencies involving Russia. 
The same warhead can be targeted against multiple designated ground 
zeros. Yet, if there were drastic changes in the worldwide strategic 
picture that led the United States to simultaneous major nuclear 
confrontations against Russia and China, the United States would 
evidently begin a major buildup of its own. This would take time, but 
so would a major Chinese buildup. The force configuration of 
``500+500'' that we propose provides a ready basis for such U.S. 
action.''. . . .
    ``Regarding potential targets in North Korea or Iran, the list 
presumably would be much shorter because the territories are smaller, 
and the numbers of defense-related installations are much fewer than in 
Russia and China. That list would very likely be limited to single 
digits in each country.''
    Dr. Payne. There is no set specific number of deployed nuclear 
weapons that can be identified as being required for deterrence for a 
set point-in-time or length of time because deterrence requirements are 
dynamic, and because U.S. force requirements are also affected by 
assurance and dissuasion goals. That is why the 2001 NPR recommended 
flexibility and the range of 1,700-2,200 operationally-deployed nuclear 
weapons.

    28. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
are the numbers driven by specific targets, and countries, or by 
capabilities?
    Dr. Gallucci. Our numbers should be sensitive to the targets of the 
various kinds we identify to create the most credible deterrent threat.
    Dr. Drell. See response to question 27.
    Dr. Payne. The appropriate range of numbers and the need for 
flexibility can be affected by each of these variables, which are not 
mutually exclusive, and also by the requirements for assurance and 
dissuasion.

    29. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
what understanding should guide the decision to study the RRW and how 
do the numbers influence the nuclear weapons complex of the future?
    Dr. Gallucci. Please see my prepared statement.
    Dr. Drell. The RRW program has two parts. The first is to transform 
the nuclear complex, and the second, to change the designs of the 
nuclear weapons in the arsenal. Concerning the first part, the nuclear 
complex needs serious attention as I testified. Parts of it date back 
to WWII and need to be updated in order for us to maintain the safety 
and reliability of the warheads in the stockpile as their numbers 
decrease. However the U.S. needs a clear statement of its long-term 
nuclear weapons policy goals which will determine the roles and 
missions of our nuclear forces, and their overall numbers, before we 
can determine the appropriate size and scope of the modernized 
infrastructure. It might be anywhere from 500 warheads to the present 
total of roughly 5,000, with between 1,700 and 2,200 actively deployed, 
as negotiated in the Treaty of Moscow. The second part of the program, 
to design new warheads, depends upon the answer to the key question of 
whether the goals of the RRW program for enhanced long-term confidence, 
safety, and use control can be achieved without underground explosive 
testing, a restriction that is in the legislation creating RRW. This 
question is worthy of study but has yet to be answered
    Dr. Payne. We should proceed with the RRW knowing that any 
contemporary estimate of the nuclear force characteristics and size 
needed for the decades ahead is likely to require adjustment as the 
future unfolds. It is likely that we will be surprised by events that 
transpire over time. We should avoid actions that would significantly 
constrain the ability of the U.S. to adjust our forces lo changing 
national security needs. Instead we should anticipate surprise and 
focus on how best to protect a range of options for the future in an 
affordable, prudent manner.

    30. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, is 
there a rush to complete the feasibility study of the first RRW design?
    Dr. Gallucci. I cannot comment.
    Dr. Drell. I believe not. The current stockpile is strong and 
stable. Its safety and reliability have been confirmed by the ongoing 
vigorous and successful stockpile stewardship and life extension 
program which has revealed no significant evidence of aging problems.
    Dr. Payne. Two areas of concern seem to warrant proceeding without 
delay on the RRW. The first concern is the vulnerability of the planned 
stockpile and deployed force to a systemic failure of the W76 warhead--
the most numerous of the warhead types in the stockpile. The RRW 
program will initially provide replacement warheads for the W76 and 
reduce the high degree of reliance on the W76 warhead. The second area 
of concern is that of the workforce on which the nation will depend for 
decades to come to make decisions on how best to sustain a safe, 
reliable nuclear stockpile. Proceeding without delay on the RRW will 
allow remaining experienced designers and engineers to work closely 
with those that will shortly take their places as the senior managers 
at nuclear weapon laboratories and plants.

    31. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
the U.S. will continue the life extension program for some time, in 
order to ensure the safety, security, and reliability of the current 
stockpile. Before we know if the RRW is feasible, how many warheads of 
any specific type should go through life extension?
    Dr. Gallucci. I cannot comment.
    Dr. Drell. I think the first order of business is to establish a 
scientific and technical consensus as to whether the LLNL led effort to 
design the first RRW can achieve its goal of enhanced long-term 
confidence, safety, and use control relative to our current stockpile 
weapons, without underground explosive testing, before moving on to 
additional designs. The first design was chosen, as announced by NNSA, 
as a relatively conservative design and therefore should be in the 
strongest position to face up to the challenge of satisfying those 
criteria but this has yet to be established, and doing so will take 
time.
    Dr. Payne. The RRW concept has not yet begun engineering 
development, and the RRW concept, while promising, is still unproven. 1 
recommend against significant cut backs an planned warhead lift 
extension programs at this time. Significant reductions in life 
extension programs would be warranted after laboratory officials 
conclude that the RRW can be developed and certified without nuclear 
testing and have demonstrated that the country can produce replacement 
quantities of the RRW.

    32. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
will the stockpile size vary if the RRW design is feasible?
    Dr. Gallucci. I cannot comment.
    Dr. Drell. A nuclear policy decision clarifying what are the 
missions and targets for our nuclear weapons will have a major impact 
on the size of the stockpile. This could cause a swing of an order of 
magnitude in their numbers, as discussed in the report that I mentioned 
earlier and submitted for the record (Drell and Goodby ``What Are 
Nuclear Weapons For?,'' ACA report, April 2005).
    Dr. Payne. I anticipate that, for a specific force structure and 
operationally-deployed nuclear force, the total size of the nuclear 
warhead stockpile needed will differ significantly depending on whether 
or not RRW is feasible, and developed and deployed. The stockpile with 
RRW warheads should be significantly smaller in number and with fewer 
warhead types.

    33. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, do 
you think that the RRW alone will allow substantial reductions in the 
total size of the stockpile, not just the number of warheads deployed?
    Dr. Gallucci. I cannot comment.
    Dr. Drell. It is hard to predict whether the RRW alone would allow 
substantial reductions in the total size or cost to the stockpile since 
the current, so-called legacy, stockpile meets current high standards 
of safety and lifetime stability. However the infrastructure, when 
modernized, may have a significant effect by achieving improved 
efficiency with consolidation of many sites and modem technology. I 
think a more important factor in this case will be the modernized 
infrastructure.
    Dr. Payne. I expect that development and production of RRW warheads 
will result in a substantial reduction in die total size of the 
stockpile of nuclear warheads. Risk of reliability failures in the 
operationally-deployed force is currently managed by retaining an 
inventory of backup warheads in storage. With an operating nuclear 
warhead infrastructure that is responsive to unanticipated warhead 
problems, the need for a large inventory of back up warheads would no 
longer exist.

                               first use
    34. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
first use of nuclear weapons is an ambiguous element of U.S. nuclear 
policy. Should it remain ambiguous?
    Dr. Gallucci. Yes.
    Dr. Drell. I believe it should remain ambiguous to the extent that 
we say that first use of nuclear weapons would be determined by a 
policy of ``defensive last resort.'' I do not support an explicit 
statement of ``no first use,'' although I can think of no circumstance 
now which would clearly call for first use. However I don't have 
confidence that I can anticipate all possible circumstances and 
therefore I think one should be clear that we view these as weapons 
only for ``defensive last resort.'' Statements stronger than that have 
the deficiency at anticipating how one would behave in extreme 
circumstances. That is hazardous and I wouldn't be confident that an 
adversary would stick by such a pledge either.
    Dr. Payne. U.S. policy is not ambiguous nor should it be so. The 
United States retains the first use option for the purposes of 
deterrence and assurance.

    35. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
are there credible scenarios in which the United States would use a 
nuclear weapon in the first instance?
    Dr. Gallucci. There are scenarios, but they are not particularly 
credible. The threat from the Warsaw Pact is no more, but one could 
just barely imagine a conventional conflict in Asia involving China in 
which we could not defend our allies or our forces without using or 
threatening to use a nuclear weapon first.
    Dr. Drell. I can think of no credible scenario at this time in 
which the United States would initiate first use of a nuclear weapon.
    Dr. Payne. There are plausible scenarios. For example, with very 
limited U.S. defensive capabilities and in the continuing absence of 
non-nuclear capabilities for long-range prompt global strike, upon 
tactical warning of a WMD missile launch, the only option for 
preventing a WMD strike against U.S. cities could be first use against 
the enemy's missile launch sites.

    36. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
would first use escalate or de-escalate a conflict?
    Dr. Gallucci. This is unknowable, but the hope would be that by 
having escalation dominance, it would de-escalate.
    Dr. Drell. This would be such an historically unprecedented move 
that there is no previous experience to give guidance to trying to 
answer that question. My greatest fear is that, in the confusion of a 
conflict where not all data is accurately determinable, an exchange 
could escalate due to faulty information about the size, number, and 
impact of the first events. The initial shock might also paralyze any 
further action. I just don't know but I wouldn't bet on it.
    Dr. Payne. Either is possible, depending on the circumstances. The 
risk of escalation would have to be compared to the risk of American 
cities being destroyed if the U.S. chose to await the opponent's first 
use.

                      NEGATIVE SECURITY ASSURANCE

    37. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, a 
longstanding United States policy has been not to attack with nuclear 
weapons a non-nuclear weapon state unless that non-weapons state aligns 
with a state that attacks the United States with a nuclear weapon. Is 
this negative security assurance still a valid policy doctrine?
    Dr. Gallucci. Yes.
    Dr. Drell. Yes.
    Dr. Payne. The statement is incorrect. The Clinton administration 
rightly claimed the right of U.S. ``belligerent reprisal'' in the event 
of an attack against the United States involving a non-nuclear state's 
use of chemical or biological weapons. This Clinton administration 
position was and remains prudent.

                             MOSCOW TREATY

    38. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
under the Moscow Treaty the United States and Russia agreed to 
operationally deploy no more than 1,700-2,200 nuclear weapons by 2012. 
But the Treaty is non-binding, as it has no duration, and is non-
verifiable. Each side is free to determine when a weapon is 
operationally-deployed. Should the Treaty be modified? For example, 
should it be modified to be durable?
    Dr. Gallucci. The treaty should be made a treaty as we have 
understood such treaties, that is, with specific numbers to be achieved 
well within the duration of the treaty, with important ambiguities 
resolved, and with verification provisions.
    Dr. Drell. Yes. The verification provisions for the Moscow Treaty 
rely on START II which expires in 2009. These provisions should be 
extended beyond that date, and should be made more specific in terms of 
which systems are being counted, and including restraints on the non-
deployed Reserve Forces, that currently number perhaps up to twice as 
many as the deployed ones.
    Dr. Payne. The statement again is incorrect. The Moscow Treaty is 
binding and is as verifiable as other treaties with the applicable 
verification provisions of START I. The Treaty's ceilings or further 
reductions could be made to extend beyond 2012. Whether this would be 
prudent or imprudent will depend on the geopolitical conditions at the 
lime and their outlook for the future.

    39. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, is 
it possible to accelerate the reductions in deployed nuclear weapons 
under the Treaty?
    Dr. Gallucci. I cannot comment.
    Dr. Drell. Yes, and I recommend that reductions proceed along the 
lines discussed in my answers to questions 27 and 28, and more fully in 
my article with Goodby ``What Are Nuclear Weapons For?'', where we 
spell out a specific deployment scheme.
    Dr. Payne. Yes, in principle. The NPR called for periodic 
assessments of the geopolitical and technical conditions pertaining in 
the future to help determine whether these conditions would permit the 
prudent acceleration of reductions or not.

    40. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
when the Senate was considering the Moscow Treaty, administration 
witnesses testified that verification provisions were not needed in the 
Moscow Treaty because the provisions of the START could be used. The 
START expires in 2009, before the Moscow Treaty goes into effect in 
2012. Should the START be extended?
    Dr. Gallucci. Yes.
    Dr. Drell. Yes, for reasons above.
    Dr. Payne. I believe that portions of the START I verification 
provisions should be extended.

    41. Senator Bill Nelson. Dr. Gallucci, Dr. Drell, and Dr. Payne, 
the Moscow Treaty talks about the number of warheads deployed, what 
about the number of warheads not deployed. Currently there are about 
four warheads in reserve for every warhead deployed. What will enable a 
reduction in the ratio of deployed to reserve warheads?
    Dr. Gallucci. I cannot comment.
    Dr. Drell. In order to reduce the ratio of Reserve to deployed 
warheads one would need to add verification provisions including 
transparency measures. In answer to an opposite question to reduce the 
ratio deployed to Reserve Forces, one could remove prompt launched 
procedures from the warheads on the actively deployed systems. One 
scheme for this was spelled out in Drell and Goodby, referred to 
earlier, which suggested working toward a force structure with Reserve 
warheads only, numbering 500. Many measures have been discussed such as 
removing warheads from the ICBMs, in the same way that bombs have been 
removed from the bomber force which is no longer on standing alert. 
Many other schemes have been proposed. All would require greater 
transparency in dealing with the Russians in order to make sure that 
reciprocal actions are taken in parallel.
    Dr. Payne. Most obviously, the timely development and deployment of 
the RRW.
                                 ______
                                 
              Question Submitted by Senator Jeff Sessions

             AGING-RELATED ISSUES IN THE ENDURING STOCKPILE

    42. Senator Sessions. Dr. Drell, your testimony during the hearing 
seemed to indicate that because recent reviews of plutonium aging 
concerns have projected longer pit lifetimes, aging-related issues will 
not manifest in the stockpile and are not a matter of urgency. Were 
your comments exclusive to plutonium aging concerns or did you mean to 
indicate that you are not aware of any aging-related concerns bearing 
on any of the warhead components or materials?
    Dr. Drell. I know of no significant aging affects showing a 
deterioration of the warheads over time, but we must be vigilant in 
looking for such effects. I believe we must continue a strong stockpile 
stewardship and life extension program that maintains detailed scrutiny 
for unanticipated aging effects showing up. We must be prepared to see 
any warning signs of aging that may arise, and to respond to them as 
needed, in order to retain confidence in our nuclear deterrent.

    [Whereupon, at 12:32 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
